<html>
<title> - INTEREST ON RESERVES AND THE FED'S BALANCE SHEET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                        INTEREST ON RESERVES AND
                        THE FED'S BALANCE SHEET

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON MONETARY

                            POLICY AND TRADE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 114-87
                           
                           
                    
                           
                           
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
            
            
            
            

                               _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-067 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                               
                           
                           
                           
                           
                           
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
SCOTT GARRETT, New Jersey            GREGORY W. MEEKS, New York
RANDY NEUGEBAUER, Texas              MICHAEL E. CAPUANO, Massachusetts
STEVAN PEARCE, New Mexico            RUBEN HINOJOSA, Texas
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        AL GREEN, Texas
BLAINE LUETKEMEYER, Missouri         EMANUEL CLEAVER, Missouri
BILL HUIZENGA, Michigan              GWEN MOORE, Wisconsin
SEAN P. DUFFY, Wisconsin             KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                ED PERLMUTTER, Colorado
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
STEPHEN LEE FINCHER, Tennessee       JOHN C. CARNEY, Jr., Delaware
MARLIN A. STUTZMAN, Indiana          TERRI A. SEWELL, Alabama
MICK MULVANEY, South Carolina        BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             DANIEL T. KILDEE, Michigan
DENNIS A. ROSS, Florida              PATRICK MURPHY, Florida
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANN WAGNER, Missouri                 KYRSTEN SINEMA, Arizona
ANDY BARR, Kentucky                  JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DENNY HECK, Washington
LUKE MESSER, Indiana                 JUAN VARGAS, California
DAVID SCHWEIKERT, Arizona
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
BRUCE POLIQUIN, Maine
MIA LOVE, Utah
FRENCH HILL, Arkansas
TOM EMMER, Minnesota

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
               Subcommittee on Monetary Policy and Trade

                   BILL HUIZENGA, Michigan, Chairman

MICK MULVANEY, South Carolina, Vice  GWEN MOORE, Wisconsin, Ranking 
    Chairman                             Member
FRANK D. LUCAS, Oklahoma             BILL FOSTER, Illinois
STEVAN PEARCE, New Mexico            ED PERLMUTTER, Colorado
LYNN A. WESTMORELAND, Georgia        JAMES A. HIMES, Connecticut
MARLIN A. STUTZMAN, Indiana          JOHN C. CARNEY, Jr., Delaware
ROBERT PITTENGER, North Carolina     TERRI A. SEWELL, Alabama
LUKE MESSER, Indiana                 PATRICK MURPHY, Florida
DAVID SCHWEIKERT, Arizona            DANIEL T. KILDEE, Michigan
FRANK GUINTA, New Hampshire          DENNY HECK, Washington
MIA LOVE, Utah
TOM EMMER, Minnesota

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    May 17, 2016.................................................     1
Appendix:
    May 17, 2016.................................................    41

                               WITNESSES
                         Tuesday, May 17, 2016

Eisenbeis, Robert A., Vice Chairman, Cumberland Advisors.........     5
Keister, Todd, Professor of Economics, Rutgers University........     7
Selgin, George, Director, Center for Monetary and Financial 
  Alternatives, Cato Institute...................................     9
Taylor, John B., Mary and Robert Raymond Professor of Economics 
  at Stanford University.........................................    11

                                APPENDIX

Prepared statements:
    Waters, Hon. Maxine..........................................    42
    Eisenbeis, Robert A..........................................    47
    Keister, Todd................................................    59
    Selgin, George...............................................    67
    Taylor, John B...............................................    83

              Additional Material Submitted for the Record

Huizenga, Hon. Bill:
    Written statement of David Malpass...........................    90


                        INTEREST ON RESERVES AND



                        THE FED'S BALANCE SHEET

                              ----------                              


                         Tuesday, May 17, 2016

             U.S. House of Representatives,
                           Subcommittee on Monetary
                                  Policy and Trade,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2128, Rayburn House Office Building, Hon. Bill Huizenga 
[chairman of the subcommittee] presiding.
    Members present: Representatives Huizenga, Mulvaney, 
Pearce, Stutzman, Pittenger, Messer, Schweikert, Guinta, Love, 
Emmer; Moore, Foster, Himes, Murphy, Kildee, and Heck.
    Ex officio present: Representatives Hensarling and Waters.
    Chairman Huizenga. The Subcommittee on Monetary Policy and 
Trade will come to order. Without objection, the Chair is 
authorized to declare a recess of the subcommittee at any time.
    Today's hearing is entitled, ``Interest on Reserves and the 
Fed's Balance Sheet.''
    I now recognize myself for 5 minutes to give an opening 
statement.
    So how did the Fed receive authorization to pay interest on 
reserves? At what level was it supposed to have set that 
interest rate?
    And most importantly, how is this new and powerful tool for 
conducting monetary policy affecting our economy, which 
continues to disappoint after having 7 years to recover?
    We will hear some of the answers to these questions and 
many others during today's important hearing. And I feel I need 
to address something that came to my attention a little earlier 
this morning.
    Apparently, there are some folks on Wall Street who have 
sent out some alerts using that term themselves about this 
hearing, that somehow interest on reserves is under attack.
    To the fine folks up on Wall Street, you are on notice. We 
are going to have a thorough complete examination of what it 
is. I think there is a tremendous amount of questions that 
surround it.
    In fact, in February when Chair Yellen was here testifying 
in front of the full Financial Services Committee, there were a 
number of concerns expressed on both sides of the aisle.
    In fact, as I recall, Chairman Hensarling allowed the 
ranking member to go long, as she was asking a line of 
questioning about that. And so there are quite a few questions 
on both sides of the aisle about it.
    And as we are looking at foreign subsidiaries and large 
banks being the recipients of the lion's share of this, that 
has a number of people very concerned of how that may also 
affect our small community banks and our regional banks and the 
liquidity in the marketplace.
    So there are a tremendous number of questions that are out 
there, and we intend on this subcommittee to explore those.
    The Financial Services Regulatory Relief Act of 2006 
authorized the Federal Reserve Board to start paying interest 
on reserves in 2011.
    In response to the financial crisis, the Emergency Economic 
Stabilization Act accelerated this authority to October 1, 
2008. According to the New York District Bank, the Fed expected 
to set interest rates, interest on reserves well below the 
Fed's target policy rate, that is, the Federal Funds rate.
    Had the Fed created such a ``rate floor,'' it would have 
complied with the letter of the law, Section 201 of the 
Financial Services Regulatory Relief Act of 2006, which 
explicitly states that interest on reserves ``cannot exceed the 
general level of short-term interest rates.''
    As we sit here today, however, interest on reserves is 
above the Federal Funds rate. This above-market rate not only 
appears to have gone outside the bounds of the authorizing 
statute, it also may be discouraging the more free flow of 
credit to an economy that can and should be flourishing.
    Speeding up the authority to pay interest on reserves 
equips the Fed to expand its balance sheet to previously 
unimaginable heights and broaden its remit to, as University of 
California economist James Hamilton put it, ``the decision of 
where credit gets allocated.''
    Responding to the immediate financial crisis, the balance 
sheet more than doubled to almost $2 trillion. Subsequently, 
various rounds of quantitative easing saw the balance sheet 
more than double again.
    Today, the Fed's balance sheet stands at $4.5 trillion. 
That is about 25 percent of the total GDP of the United States. 
And as I say to folks back home, sometimes we lose perspective 
on how many zeros are in a trillion.
    And I always tell them, write a one and 12 zeros behind it 
and start counting backwards to where it is a thousand, ten 
thousand, a hundred thousand, and you see how big those numbers 
really are.
    At the same time, the average maturity of Treasury 
securities held by the Fed increased from about 5 years to over 
10 years, which considerably increases the balance sheet's 
exposure to interest rate duration risk.
    Almost 7 years old, the Fed's colossal and distortionary 
balance sheet shows no signs of shrinking. To be sure, the Fed 
appears to have only started thinking about an exit as 
described in its late 2014 Policy Normalization Principles and 
Plans report, but the word ``principles'' is nowhere to be 
found in this description.
    Moreover, the plan simply mimics the same opaque ``data-
dependent strategy'' for monetary policy that has left market 
participants scratching their heads for years wondering what 
data will inform the Fed's decision-making and how will the 
FOMC react to that data.
    We will not fully realize robust economic growth until the 
Fed returns to a rules-based strategy for reliable supporting 
of the free flow of goods and services with an efficient 
exchange mechanism, in my opinion.
    As former Federal Reserve Board Governor Kevin Warsh 
observed, ``Currency stability is one of growth's best 
friends.'' Unfortunately, monetary policy has clearly stepped 
outside this bound and shows little, if any, sign of returning.
    This lack of a clear and prudent strategy not only puts 
present economic opportunity at risk, it threatens the 
durability of monetary policy independence itself.
    Today's hearing provides us with another opportunity to 
examine how the Federal Reserve conducts monetary policy and 
why the development of these policies is in desperate need of a 
more disciplined and transparent approach.
    Needless to say, the Fed's high degree of discretion and 
its lack of transparency in how it conducts monetary policy 
continue to suggest that reforms are needed.
    My time has expired. The Chair now recognizes the ranking 
member of the subcommittee, the gentlelady from Wisconsin, Ms. 
Moore, for 5 minutes for an opening statement.
    Ms. Moore. Thank you so much, Mr. Chairman. And I want to 
welcome the witnesses. I think everyone seems to agree that the 
current situation is our rational and predictable way for the 
Fed to raise interest rates, which is what they have done.
    And that is primarily to pay interest on excess reserves. I 
agree with it, but I certainly can understand why perhaps Dr. 
Taylor here and others may disagree with why or how the Fed got 
here.
    But for those who understand the Fed's use of the IOER and 
to a lesser extent, the reverse repo markets, this is the best 
way for increasing interest rates, because we have to return 
some sort of normalization.
    We just can't have close to zero interest rates. Congress 
voted to provide the Fed with the ability to pay interest on 
excess reserves in 2006 when it passed H.R. 3505, a bill 
sponsored by our Chairman Hensarling.
    Many of us voted for this bill, myself included. So we 
clearly and affirmatively authorized the Fed to take these 
actions. We know that this is not only a tool that our central 
bank, our Fed, used but that many other central banks are also 
currently employing.
    In other words, our Fed used the best tool for the job that 
is both well-established among central banks and authorized by 
our Congress. I do agree that it is horrible optics.
    It is a policy debate that is raging because there is a 
concern about subsidizing the banks. I do feel encouraged to 
know that the profits, whatever profits are received from the 
Fed actually go back to the Treasury.
    So, it is horrible optics, but I don't think in reality we 
are subsidizing the banks. This is a very complicated policy, 
so I definitely look forward to this hearing.
    And I know that is true for us in liberal Milwaukee, as 
well as conservative Michigan Heights, Michigan. I would like 
to yield the rest of my time to the ranking member of the full 
Financial Services Committee, Ms. Waters.
    Ms. Waters. Thank you very much, Congresswoman Moore, but I 
would like to yield my time to Mr. Himes.
    Ms. Moore. I will yield the time to Mr. Himes.
    Ms. Waters. Thank you.
    Mr. Himes. Thank you to the ranking member and to Ms. Moore 
for that. I am not entirely prepared for the time, but I do 
feel very strongly about this. And so thank you, I really 
appreciate the yielding of time.
    Look, the subjects don't get a lot more complicated than 
interest paid on excess reserves, but there are two things that 
are pretty uncomplicated. And those two things are why I am 
here.
    Number one, there is a certain irony to the Congress of the 
United States holding the Fed up for scrutiny for their conduct 
of monetary policies since the crisis of 2008.
    With the exception of the American Recovery Act, which was 
profoundly controversial and partisan here, Congress has 
utterly and completely abnegated its role to conduct the kind 
of fiscal policy that classical economics and most economists 
would say we should have done.
    Yes, we passed the Recovery Act and that was about $800 
billion of fiscal stimulus. Most economists today, those who 
are driven by empirical analysis, would tell you that was too 
little and too heavy on tax cuts and not heavy enough on 
infrastructure investment and the kind of things that actually 
put Americans back to work.
    Okay, so we had that fiscal stimulus. That was important. 
Since then, since 2009, the Congress has completely abdicated 
the role that economists across the political spectrum would 
say we should do, which is to continue with classic fiscal 
stimulus.
    So, in the context of the Congress completely abnegating 
its fiscal role, we have had no other game in town but for the 
monetary policy conducted by the Federal Reserve.
    And you know what, we highlight the word ``innovative'' 
around here, and we say we want them to be innovative. Yes, 
their policies with the Twist and with QE2 were innovative.
    They were different than the conduct of monetary policy, 
but because of the Federal Reserve's policy, including the 
payment of interest on reserves we have what is without 
question the most robust recovery amongst industrialized OECD 
nations however you want to play it.
    And I have asked this question of Chairman Bernanke time 
and time again. Now this is a complicated thing, but we need to 
talk more about the fact that this is a transaction with two 
parts.
    Yes, we pay about $7 billion, or the Fed pays about $7 
billion. Meanwhile, the Fed is returning about $100 billion to 
the United States Treasury. Those are the two halves of this 
transaction.
    And I do hope we have an opportunity to discuss that in 
this hearing. I thank the ranking member for the time and I 
yield back.
    Chairman Huizenga. The gentlelady's time has expired. And I 
imagine we will get into a few of those issues today with the 
testimony of our panel of experts we welcome today.
    First, we have Dr. Robert Eisenbeis, vice chairman of 
Cumberland Advisors
    Second, we have Dr. Todd Keister, professor of economics at 
Rutgers University.
    Third, we have Dr. George Selgin, director of the Center 
for Monetary Policy and Financial Alternatives at the Cato 
Institute.
    And last, but certainly not least, we have Dr. John B. 
Taylor, the Mary and Robert Raymond professor of economics at 
Stanford University.
    Each of you will be recognized for 5 minutes to give an 
oral presentation of your testimony, which we have received 
written copies of previously, and without objection, each of 
your written statements will be made a part of the record.
    And before I forget, Dr. David Malpass was supposed to be 
part of this panel today. Unfortunately, he had a death in the 
family, and we wish him and his family all the best.
    They are in our thoughts and prayers collectively. I would 
like to submit for the record, without objection, his written 
testimony as well, and would ask that we make that a part of 
the record.
    With that, Dr. Eisenbeis, you are recognized for 5 minutes.

  STATEMENT OF ROBERT A. EISENBEIS, VICE CHAIRMAN, CUMBERLAND 
                            ADVISORS

    Mr. Eisenbeis. Thank you very much. Chairman Huizenga, and 
Ranking Members Moore and Waters, I really appreciate the 
opportunity, and I am honored to be here today.
    I want to address in particular certain misconceptions 
about the Federal Reserve's balance sheet and some of the fund 
flows that take place between the Fed and the Treasury and how 
that interplays with the interest on reserves.
    Often the Fed is compared to a private sector bank, but 
there are really some fundamental differences between the Fed 
and a private sector bank.
    The Fed is a government entity and when analyzing payment 
flows and fund flows and balance sheets, I think it is really 
best to look at the process and implications from the 
perspective of the consolidated governments balance sheet 
rather than separately the Federal Reserve and the Treasury.
    Unlike a private bank, to purchase assets, the Fed really 
doesn't have to go into the marketplace and pay interest on 
funds in order to generate the resources to purchase government 
securities.
    When it purchases a security, essentially what it does is 
it increases the reserve account of the seller's bank's reserve 
account. And had it paid for Treasuries by drawing down its 
stock of Federal Reserve notes, we would have said the Fed had 
printed money and monetized Treasury debt.
    It is also important to understand that unlike deposits at 
a private sector bank, reserves never leave the Federal Reserve 
when one bank or one of its customers engages in a transaction. 
Ownership of a reserve account may change, but the funds never 
leave the Fed.
    Now what about payment of interest on reserves? The Fed is 
paid interest by the Treasury on its portfolio holdings. It 
then extracts its operating costs, including interest payments 
on reserves and returns the remainder to the Treasury.
    From the perspective of the consolidated Fed/Treasury/
Government balance sheet, the Fed purchases higher cost 
Treasury debt off the market and replaces it with another form 
of de facto Government short-term debt paying 50 basis points.
    If this intragovernmental transfer of funds between the Fed 
and the Treasury were settled the way interest rates swaps are 
settled by netting, there would always be a net payment, a 
transfer of funds from the Treasury to the Fed.
    Furthermore, Treasury securities are effectively retired 
because of the fact that the government owns its own debt. The 
Treasury is covering the Feds operating costs and effectively 
is making those interest payments on reserves.
    So it is a mistake to characterize Fed remittances, as is 
commonly done, as a return of profits made by the Fed to the 
Treasury. It is only due to a flaw in government accounting 
that the Treasury can count such remittances from the Fed as 
revenue for budget purposes.
    This is clearly a case of questionable accounting, and is 
misleading when it comes to the treatment of government 
revenues and resources. Our interest payments are subsidied to 
banks. This is a common question and concern.
    In the wake of the Great Recession, interest on reserves 
became an essential tool for the Fed to influence short-term 
interest rates. For most of history, the Federal Reserve had 
paid no interest on reserves at all.
    But requiring banks to hold a portion of their assets as 
noninterest-bearing reserves against their deposits effectively 
reduced bank earnings and functioned like a tax.
    Because this tax was high and especially during inflation 
periods like we had in the 1970's and 1980's, many banks opted 
to give up their membership in the Federal Reserve.
    And the Fed even resorted to providing free payment 
services to the equivalent of toasters, we saw in the private 
sector, to offset the ongoing cost of membership.
    Predictably, banks sought to minimize excess reserves by 
expanding loans, thus converting excess reserves into required 
reserves. For the banking system as a whole, this practice 
created a money multiplier where $1 reserves could conceptually 
support even a tenfold increase in the money supply and 
potentially trigger an explosion in inflation.
    This unwelcome prospect explains why economists and some 
members of the FOC are and have been concerned about the need 
to wind down its portfolio and decrease the amount of excess 
reserves and return interest rates to normal.
    In this context, the Fed ability to pay interest on 
reserves is critical to keeping interest rates, the money 
supply, and inflation under control, consistent with the Fed's 
dual mandate.
    However, there is an additional issue when we recognize, as 
shown in Figure 1 attached to my written testimony, but a 
substantial portion of the excess reserves in the financial 
system are actually in the U.S. subsidiaries and affiliates of 
foreign banks, which now account for 40 percent of the excess 
reserves, but only about 10 percent of U.S. domestic deposits.
    Because of this imbalance, they also receive a 
disproportionate share of the interest payments on reserves 
relative to domestic institutions.
    There are really two explanations for this imbalance. 
First, the Dobbs Bank Act changed how deposit insurance 
assessments were charged. Large banks, mainly those over $500 
billion, now pay 15 basis points or more on total assets.
    This means that while they currently earn 50 basis points 
on their reserves, their net return is 35 basis points. It was 
10 basis points prior to the rate change in December of 2015.
    In contrast, foreign banks aren't subject to the 15 basis 
point assessment. They are able to earn the full 50 basis 
points on their excess reserves. But for foreign institutions 
headquartered in Europe or Japan, for example, where policy 
rates are now negative, the spread is even wider.
    In the case of European Bank it is now 90 basis points, and 
reserves at the Fed are clearly an attractive asset in earning 
asset.
    Chairman Huizenga. Dr. Eisenbeis, I have to interrupt. Time 
has expired at this point, and we will have to return back to 
you during questions.
    Mr. Eisenbeis. Fine.
    Chairman Huizenga. All right, I appreciate that.
    Mr. Eisenbeis. Thank you.
    [The prepared statement of Dr. Eisenbeis can be found on 
page 47 of the appendix.]
    Chairman Huizenga. Dr. Keister, you are recognized for a 
generous 5 minutes as well, so, and we thank you for that.

  STATEMENT OF TODD KEISTER, PROFESSOR OF ECONOMICS, RUTGERS 
                           UNIVERSITY

    Mr. Keister. Thank you, Mr. Chairman, Ranking Member Moore, 
and members of the subcommittee. The ability to pay interest on 
reserves is an important policy tool, and Congress' 
authorization of these payments in 2006 was a welcome 
development. In the aftermath of the financial crisis, the Fed 
has come to rely more heavily on this tool than was previously 
anticipated.
    Because paying interest on reserves is still relatively new 
in the United States, there is naturally some uncertainty in 
the minds of both the public and policymakers about the 
implications of this tool.
    In my comments today, I will argue that continuing to pay 
interest on both required and excess reserves is not only 
essential for the implementation of monetary policy, but also 
sound economic policy.
    I will focus on four key points. First, paying interest on 
excess reserves has no cost to the taxpayer. To understand why, 
it is helpful to walk through the mechanics of how bank 
reserves are created using a simple example.
    Imagine we start with a situation in which I personally 
owned a U.S. Treasury Bond. And the U.S. Government regularly 
pays interest on that bond to me. Now suppose I decide to sell 
this bond and that the Fed purchases my bond.
    When this transaction takes place, the Fed credits my bank 
with reserves equal to the value of the bond, and my bank 
credits my account in the same amount. In this new situation, 
the Treasury pays interest on the bond to the Fed.
    The Fed pays interest on the reserves to my bank. And my 
bank pays interest on my deposit to me. In other words, the Fed 
paying interest on reserves is a link in a chain of payments 
that replaces payments the Treasury would otherwise be making 
directly to bondholders.
    Seen this way, the operation clearly creates no cost for 
the taxpayer. In fact, as we have already heard, since the 
interest rate on excess reserves is generally lower than the 
interest rate on long-term Treasury bonds, the operation 
creates a net gain for the taxpayer.
    My second point is that paying interest on excess reserves 
is not a subsidy to banks. Suppose I keep the money I receive 
from the sale of the bond in my savings account. Then my bank 
would be earning 50 basis points on the newly created reserves, 
but it would be paying me approximately 30 basis points on my 
new deposit.
    My deposit also increases the bank's cost indirectly by 
raising the deposit insurance fees it must pay to the FDIC and 
by increasing its leverage. Overall, the bank may make a small 
profit on this transaction, but to a first approximation it 
will roughly break even.
    So taking into account the cost as well as the benefits of 
my deposit to the bank shows that earning interest on excess 
reserves does not represent a subsidy.
    My third point is that policy should be designed to 
encourage banks to hold excess reserves. Bank reserves are the 
life blood of our Nation's payment system. Every business day, 
more than $3 trillion of payments are made over the Fed's 
network. Banks are making these payments on behalf of their 
customers using the reserves they hold on deposit at the Fed.
    Prior to 2008 when no interest was paid on reserves, the 
Fed needed to create a scarcity of reserves to keep market 
interest rates positive. In fact, reserves were so scarce that 
our payment system could not adequately function using those 
reserves alone. Instead the Fed permitted banks to run 
overdrafts in their reserve accounts for a few hours each day 
solely for the purpose of allowing the payment system to 
function.
    These overdrafts were large at times, with an average daily 
peak value of more than $180 billion in 2007. One byproduct of 
the large expansion of bank reserves that has occurred over the 
last few years is that these intraday overdrafts have fallen by 
more than 90 percent, decreasing the risk to the Fed and 
ultimately to the taxpayer.
    In addition, payments are on average being sent earlier in 
the day, eliminating bottlenecks, reducing delays, and 
enhancing the resilience of our payment system.
    This brings me to my final point. The Fed's balance sheet 
should remain larger than its pre-crisis level even in the long 
run. While the Fed's balance sheet should and will shrink 
substantially from its current level, it would be a mistake to 
return to the precrisis approach of creating a scarcity of bank 
reserves to control interest rates.
    There have been substantial changes in the financial system 
since 2008, including a greater awareness of liquidity risks, 
and new regulations that are increasing banks' demand for safe 
liquid assets, such as reserves.
    Going back to the old approach of controlling interest 
rates by creating a scarcity of reserves not only runs counter 
to the goals of these new regulations, but also would likely be 
less effective in achieving the desired level of market 
interest rates than in the past.
    In contrast, the Fed holding a moderately larger balance 
sheet and relying primarily on the interest rate on excess 
reserves to steer market rates would be a more effective way to 
implement monetary policy going forward, while simultaneously 
promoting safety and efficiency in the payment network that 
underlies our financial system.
    Thank you again for this opportunity to testify before you 
today. I would be happy to answer any questions.
    [The prepared statement of Dr. Keister can be found on page 
59 of the appendix.]
    Chairman Huizenga. Thank you, Dr. Keister.
    Dr. Selgin, you are recognized for 5 minutes.

 STATEMENT OF GEORGE SELGIN, DIRECTOR, CENTER FOR MONETARY AND 
             FINANCIAL ALTERNATIVES, CATO INSTITUTE

    Mr. Selgin. Mr. Chairman, Ranking Member Moore, and 
distinguished subcommittee members, the original intent of the 
2006 legislation granting the Fed permission to pay interest on 
reserves was to resolve what in retrospect was a rather minor 
inefficiency in the payment system related to the opportunity 
costs of holding non-interest earning reserves.
    The accelerated deployment of that authority in 2008 was 
undertaken as a contractionary monetary measure. This was its 
avowed purpose. At the time, the Federal Reserve believed that 
its emergency lending would create excessive credit in the 
system and prevent it from reaching its monetary policy 
targets.
    We know in retrospect that this decision was tragically 
mistaken. Because at the very time that the Fed began to 
encourage banks to hoard reserves rather than lend them, the 
economy's total spending was collapsing and it continued to 
collapse afterwards from what had been a growth rate of about 3 
percent at the beginning of 2007, to a rate of minus 3 percent 
at the end of 2008, beginning of 2009.
    The combination of interest on reserves, which is designed 
to prevent banks from lending either to each other or to the 
market in general, and massive reserve creation by the Federal 
Reserve resulted in a massive accumulation not just of 
reserves, but of excess reserves, that is reserves held without 
any corresponding increase in required reserves that would 
occur if deposits had also expanded. In fact, bank deposits did 
not increase despite a tremendous increase in total reserves in 
the system as they normally would.
    Banks before 2008 seldom held more than $1.8 billion in 
excess reserves. At some point after this policy was 
implemented, after the Federal Reserve also had engaged in its 
third round of quantitative easing, they held $2.7 trillion of 
excess reserves, and they still hold about $2.3 trillion.
    Normally banks shed their excess reserves by trading them 
for higher yielding assets or lending them to other banks. Even 
if they don't want to incur risk, they can trade their excess 
reserves for higher yielding safe Treasury securities.
    Interest on reserves eliminated the incentive for them to 
do that and to therefore contribute to a more general expansion 
of deposits and credit by making reserves earn more than 
Treasuries, as they have done for the most part ever since the 
policy was implemented.
    The result, to use some economics jargon, is that the 
normal money multiplier, which gives you the relationship 
between total bank reserves in the system and total money 
supply including bank deposits, collapsed.
    This caused quantitative easing to be much less effective 
in increasing spending, income, and employment than it would 
have been otherwise. Because almost all the new reserves 
created by the massive quantitative easing programs the Fed 
undertook simply piled up in banks and mainly, as Dr. Eisenbeis 
just explained, in foreign banks.
    The large expansion of the Fed's balance sheet that has 
gone along with this hoarding of bank reserves, and what I mean 
is that has been made the accumulation of excess reserves 
possible, has also involved, because banks have not increased 
credit proportionately, a tremendous increase in the Federal 
Reserve's share of financial intermediation from about 10 
percent of total allocation of credit in the economy, of money-
based credit, to just about 30 percent.
    Ladies and gentlemen, central banks have never been 
intended to be efficient allocators of the Nation's scarce 
savings. And the Fed is no exception. It was an inefficient 
investor of savings before the crisis.
    Naturally, it was never intended to be looking for 
productive lending opportunities. The changes in its balance 
sheet since have made it a far more inefficient employer of 
savings. The inefficiency that results from the Feds having 
nationalized so many savings far exceeds those that the 
original Act allowing payment of interest on reserves was 
supposed to correct.
    Ladies and gentlemen, I have very little time, but I will 
simply say that contrary to what some of the other speakers 
have said, we desperately need to return to the old-fashioned 
way of conducting monetary policy by having the Fed unwind its 
balance sheet, get rid of the assets it has accumulated, allow 
banks to earn interest only on required reserves, and encourage 
them not to hold excess reserves but instead to engage in 
productive lending.
    I am going to yield the rest of my time to Professor 
Taylor, who is a lot smarter than I am. Thank you.
    [The prepared statement of Dr. Selgin can be found on page 
67 of the appendix.]
    Chairman Huizenga. With that, your time has expired, Dr. 
Selgin, but we are very pleased to--
    Mr. Selgin. Oh, thank you, sorry.
    Chairman Huizenga. --welcome Dr. John Taylor back to the 
subcommittee, and we look forward to your testimony. With that, 
you are recognized for 5 minutes.

STATEMENT OF JOHN B. TAYLOR, MARY AND ROBERT RAYMOND PROFESSOR 
              OF ECONOMICS AT STANFORD UNIVERSITY

    Mr. Taylor. Thank you, Mr. Chairman, Ranking Member Moore, 
and other members of the subcommittee, for inviting me to talk 
about this important but complicated subject, interest on 
reserves and the Fed's balance sheet. Since reserves are such a 
large part of the Fed's balance sheet, I thought maybe we 
should look at the balance sheet to begin. So I put a picture 
on the front page of my written testimony. I have simplified it 
a bit, but basically it is the main issues.
    If you look at that, you can see that the size has 
increased. Measuring by assets it has gone from $842 billion to 
$4,478 billion. Part of that is because currency has increased. 
Currency has gone from $758 billion to $1,407 billion. That is 
not unusual; that is the growth of the currency.
    What is unusual is this gigantic increase in securities, 
purchase of Treasury securities and mortgage bank securities by 
the Fed, which have gone from $760 billion to $4,234 billion. 
All those figures are in the table.
    Finally, what this has led to is a literal explosion of 
reserves. Reserve balances is what the Fed calls it. From $14 
billion to $2,401 billion. I have a chart on page 2 of my 
testimony which shows that this occurs quite dramatically. This 
occurred of course to finance the purchases of these 
securities.
    In the correspondence with QE1, QE2 and QE3, each 
successively jumping the amount of reserves, is what shows you 
that close correlation between the need to finance QEs and the 
financing through reserve creation.
    When you increase the supply of reserves so much, basic 
economics tells you that is going to drive the market interest 
rate down close to zero. And in fact it did in the fall of 
2008, very rapidly, even faster than the Fed was able to adjust 
its target. There is another chart showing that in my 
testimony.
    But the fact that such a gigantic increase in supply of 
reserves will drive the interest rate down brings us to the 
topic of this hearing. Because to prevent that, the Fed has 
instituted interest on reserves and taken the legal, the law to 
do that.
    I think this disconnect between the interest rate set by 
the Fed through interest on reserves which you could see had 
happened in December, they want to raise the interest rate by 
25 basis points so they raised interest on reserves by 25 basis 
points. No necessary change in the amount of reserves to do 
that.
    So there is a disconnect between the interest rate the Fed 
is setting and the amount of reserves, the amount of money in 
the economy. I think that disconnect is necessary now because 
of this gigantic amount of reserves. There is no choice. 
Otherwise, the rate will fall to zero.
    But as a long-term proposition, I do not think it is a good 
idea to make that disconnect. It does give the Fed another 
tool. But quite frankly it enables the Fed to what I would call 
a multipurpose discretionary institution instead of a rather 
limited purpose rules-based institution, that extra tool gives 
it the ability to do that.
    In this instance, I think it is promising that the Fed in 
their policy normalization principles and plans said that in 
the longer run they will hold no more securities than necessary 
to implement monetary policy efficiently and effectively, and 
that we will hold primarily Treasury securities.
    I would like the Fed to describe to us what effectively, 
primarily, and efficiently means, because it is not clear. I 
think it would be very useful if the Fed said they were going 
to bring that balance sheet down to a level where the supply 
and demand reserves determined the interest rate as in any 
other market, a market that determined the interest rate.
    To do that, to clarify that they are not going to have to 
pay interest on excess reserves in that mode, and remember that 
gigantic increase in reserves will come down substantially. We 
don't know how much it will come down, but come down to the 
point where the interest rate is determined by the supply and 
demand for reserves or money as it has in the past.
    And again, it is true that this gives you an additional 
tool. But I think that additional tool is one of the problems 
we have. It would be important for the Fed to say we are going 
to set monetary policy.
    Not with this extra instrument, which enables it to do so 
many other things including credit allocation, things that are 
properly fiscal policy. It is not the job of the Fed to do 
fiscal policy and credit allocation, but this extra tool 
enables them to do that.
    I say, go back to the basic way it worked before. The world 
is different, it is not exactly the same. I think we will have 
a better Fed, a better monetary policy in that situation.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Taylor can be found on page 
83 of the appendix.]
    Chairman Huizenga. Thank you, Dr. Taylor.
    I can see we have a lot of issues to dive into in a very 
short period of time. And with that, I am going to recognize 
myself for 5 minutes for questions.
    I will point out to my colleagues that we had a similar 
panel of Ph.D. economists, concerning the stimulus, and I asked 
the question, who here on the panel believes it should have 
been about half the size? A few hands went up. I asked who, 
here believes it ought to have doubled? One hand went up.
    And the simple fact is that economists are split as to 
whether we had spent half as much or twice as much, we would 
probably end up about right where we are. The question is, do 
you want more debt or less debt as we are moving forward.
    Dr. Eisenbeis, I know you got cut off a little bit, but the 
Treasury is making the payments as a profit was a point made. I 
am curious if you would like to still continue to unpack that.
    I know Dr. Keister had an opposite view of that. And I am 
going to quickly try to move along to Dr. Taylor. And then the 
main question that I have is how in the world are we going to 
unwind all this, and Dr. Taylor was starting to get at that. 
So, Dr. Eisenbeis?
    Mr. Eisenbeis. I think that the proper way to view the 
interest payments, and what Dr. Keister was essentially 
addressing was from the perspective of the financial 
institution, how it deployed those funds once received and how 
it affected the customers.
    I was talking more about how one should view the transfer 
of funds from the Treasury to the Federal Reserve, and 
essentially my main point was that it is the Treasury who is 
paying the interest on reserves.
    When it comes to unwinding the balance sheet, the Fed faces 
a really difficult problem. Because if you just let the 
Treasury securities run off, it would take until about, through 
the normal maturing process, until about 2029 before you would 
return the balance sheet to something close to what I would 
call equilibrium, where essentially mainly you have, as 
Professor Taylor was talking about, sufficient excess reserves 
to conduct monetary policy, and then backing of the currency, 
which would imply a currency level somewhere around $1.3 
trillion or thereabouts.
    Chairman Huizenga. Thank you. Sorry, I have to quickly move 
along. I would like to use a Bloomberg chart that used Dr. 
Taylor's information, but I would be remiss if I didn't take an 
opportunity while having Dr. Taylor here to talk about a rule-
based Fed policy and sort of where the Federal funds rate was 
and where that dotted line is.
    What the ideal rate is calculated by the Taylor Rule. It 
pretty much shows, it looks like the Fed was somewhere, two to 
maybe three or four quarters behind you, Dr. Taylor, on where 
they should have gone. Do you care to address this and take a 
stab at where we are at?
    Mr. Taylor. Yes, thank you, Mr. Chairman. I think what this 
shows is in the period before the crisis, the interest rate set 
by the Fed was much lower than it would have set had it been 
operating policy as in the 1980s and 1990s. It then caused 
search for yields, excesses in the housing market, and 
eventually the bust. So, it is a real concern.
    If it was closer to the rule, whatever rule, it would have 
been better. During the panic period, they came and brought 
interest rates down very rapidly. It seemed appropriate. But 
since then the rate has been not what I would say rule-based as 
in the past, hanging at around zero, and I think that has been 
a problem.
    Chairman Huizenga. And I know that I had suggested that the 
Chair could create the Yellen rule at some point or another, 
that if there was any kind of rule that needed to be had, and 
that is part of our FORM Act, the Federal Oversight Reform and 
Modernization Act, that has passed the House.
    I would like you to quickly, Dr. Taylor, I know you were 
starting to talk about that on page four and five of your 
written testimony, what happens when the IOER, the excessive 
reserves, interest on excessive, not the required but the 
excessive reserves declines, who benefits from that? You were 
starting to talk about that and Dr. Eisenbeis was a little bit, 
but do you care to address that please?
    Mr. Taylor. At this point, I think the testimony by Mr. 
Eisenbeis makes this clear. It is necessary to do this because 
reserves are so high. So, if they want to raise the rates they 
have to. But it's as if the Fed has been borrowing instead of 
the Treasury, so in that sense it is a wash.
    My concern is that this extra instrument really creates 
many other ways for the Fed to intervene in the economy, and I 
think people don't benefit from that. Maybe one sector will 
benefit, but that is not the job. The Fed is not supposed to 
help certain sectors. It is supposed to help the whole economy. 
That is why it has been successful when it has done that.
    Chairman Huizenga. Just so we are clear, Dr. Selgin, we 
have 5 seconds.
    Mr. Selgin. I actually had another point.
    Chairman Huizenga. Okay, but my time has expired. So with 
that, the Chair recognizes the ranking member of the 
subcommittee, Ms. Moore, for 5 minutes.
    Ms. Moore. Thank you so much, gentlemen, again, for 
appearing. I have to say that the chart you just put up, Mr. 
Chairman, was very confusing to the extent that it was more 
theoretical than anything.
    I guess I am confused, and I guess I will let Dr. Taylor 
and Dr. Keister sort of explain this to us further. I think 
that the Fed has been operating under their mandate.
    The Taylor Rule has been an intellectual discussion, and it 
is not something that the Fed has relied on. And right now, the 
current Fed is operating under that same mandate. And they were 
operating under that mandate in the period that you used to 
calculate your Taylor Rule. So let me start with Dr. Keister. 
Can you respond to the chart we saw?
    Mr. Keister. Sure. I think it is important to remember as 
we focus, for example, on that period in the early 2000s when 
the Fed's interest rate was lower than the Taylor Rule would 
have suggested, that there were very real risks at that time.
    After the crash of the stock market and the collapse of the 
dot.com stocks, there was a very real risk of falling into a 
deeper recession and we were worried about deflation. The fact 
that those risks did not materialize doesn't mean the Fed got 
it wrong; it could be interpreted as meaning the Fed got it 
exactly right.
    It is by easing policy more than would have been suggested 
by a rule that was based on an earlier time period, the Fed 
mitigated those risks and helped the economy recover.
    Ms. Moore. Okay. Dr. Taylor, Dr. Keister essentially said 
that the Taylor Rule really didn't take into account the 
recession, didn't really take into account other risks to the 
system, and I guess I would give you an opportunity for a few 
seconds to respond to that.
    Mr. Taylor. There are many reasons the Fed and people who 
worked at the Fed give to explain why the interest rate was so 
low at that point in time. You just heard one of them. There 
are others: that there were international effects; that we 
couldn't do much about interest rates.
    I think the bottom line is, it is not theoretical. It is 
based on what worked in the 1980s and 1990s until this time. We 
had basically a good, stable economy. We had a few recessions, 
but the ones that occurred were mild.
    Unemployment was much better than what happened in this 
Great Recession. So, that experience has led people, economists 
to think that kind of a policy is not rocket science; it is 
better than one that just ignores it. And when the Fed ignores 
it, it causes problems and that chart shows it big time.
    Ms. Moore. Dr. Keister?
    Mr. Keister. Sure. My main concern about the format is that 
any rule that performed well in a certain time period may not 
perform as well in the future. I think we want the Fed to be 
forward-looking, not backward-looking in its policies, and we 
want the Fed to react as there are changes in the environment.
    Recovering from the financial crisis as the Fed's balance 
sheets continue to normalize, I think we should expect the 
environment to be different than it was, particularly in the 
1980s and the 1990s. And we would like the Fed to have to 
maintain the flexibility to react in the most appropriate way 
as the environment continues to evolve.
    Ms. Moore. I want to change the subject just a little bit 
with my remaining time.
    To you, Dr. Keister, if the Fed's goal ultimately is to 
help our economy grow, we are suffering from low growth. The 
presence of these reserves theoretically, even if there is a 
disincentive to lend it from bank to bank, there still is an 
incentive to provide these resources to economic development 
and to businesses with what the Fed is doing. Am I correct in 
that?
    Mr. Keister. Yes. That is exactly. And that is a point that 
I hope that my little simple example helps clarify. So, when 
the Fed purchases the bond from me, it is holding reserves, but 
it also has a new deposit from me. That doesn't in any way 
prevent my bank from being able to make loans and create credit 
for businesses and consumers.
    By holding more reserves, the bank is safer, and it is 
sounder, but it still has every bit as much incentive to lend 
out to customers.
    Ms. Moore. Okay. Thank you. I yield back--
    Chairman Huizenga. The gentlelady's time has expired. 
With--
    Ms. Moore. --4 seconds left.
    Chairman Huizenga. Yes, I can grant you the 4 seconds back 
if you would like.
    Ms. Moore. No, no. I am just saying that I yielded back.
    Chairman Huizenga. Okay. Point taken. So with that, the 
Chair recognizes the vice chairman of the subcommittee, Mr. 
Mulvaney of South Carolina, for 5 minutes.
    Mr. Mulvaney. Thanks very much, Mr. Chairman.
    I don't know where to begin. A couple of different topics. 
Dr. Taylor, you said something towards the tail end of your 
testimony that the tool, the interest rate on reserves, allowed 
the Fed in effect to set fiscal policy. Did I hear you 
correctly, sir? Could you expand on that a little bit if that--
    Mr. Taylor. Yes. That is what I said. So, given that the 
interest rate can be determined by this interest on reserves, 
means the balance sheet can go wherever it wants to go. Just as 
that is the disconnect that I mentioned.
    So, in that circumstance, the Fed could buy mortgages. It 
could even buy student loans. It could buy automobile loans. In 
fact, of course, it did buy mortgage-backed securities early 
on.
    Mr. Mulvaney. But they can do that--
    Mr. Taylor. But that is a credit allocation issue. It seems 
to me that is the kind of thing that Congress should be 
deciding, which agency should be doing that.
    Mr. Mulvaney. I don't think I am disagreeing with you, but 
they have that ability. I asked Chair Yellen about that, and 
her predecessor as well. They have that ability anyway, don't 
they? They could buy municipal debt if they want to.
    That is one of the authorities they have.
    Mr. Taylor. I think the difference is if the balance sheet 
and the supply of reserves has to be at a level--the supply is 
at a level where it is equilibrating the interest rate. It 
doesn't have the ability to move it anywhere it wants.
    The connection between interest and money is a classic one.
    Mr. Mulvaney. Yes.
    Mr. Taylor. They have severed that. And so, that means 
there is much more ability to expand the balance sheet. They 
could not have expanded the balance sheet to where it is now in 
my picture and still be able to have a positive interest rate 
without this tool.
    Mr. Mulvaney. Dr. Selgin, do you have any thoughts on that?
    Mr. Selgin. Yes, sir. The difference that interest on 
reserve makes is that by encouraging banks to hold large 
quantities of excess reserves it effectively gives the Federal 
Reserve a larger share of savings to play with, and to 
intermediate.
    And that, in turn, means that whatever assets the Fed 
chooses to buy and hold, that its influence on the overall 
allocation of credit is much greater under an interest on 
reserve regime that it would normally be.
    Mr. Mulvaney. Have you gentlemen given any thought to why 
this--my understanding is that when this tool was used in 
December of 2015, it was the first time it had been done. Chair 
Yellen was here before that, and the Fed had anticipated that, 
hinted that they were going to use this tool.
    I remember asking her at a hearing why she expected to use 
that tool as opposed to moving the Fed funds, right? Or some 
other traditional tool, shrinking the balance sheet, for 
example. And she said, well, you know, the answer is what we 
always get. Which is we have many tools available to us. We 
just happened to pick this one this time.
    Do you gentlemen have any thoughts as to why you think this 
tool was used in December of 2015 and not one of the more 
traditional tools? Dr. Selgin?
    Mr. Selgin. The fact is that the Federal Reserve was unable 
to use its traditional tools. Let me go back to when they first 
implemented interest on reserves, just for a moment.
    The original idea was that interest on reserves would put a 
floor on the actual effective Federal funds rate, and that 
would help the Fed to keep its target, which was still above 
zero at that time. It didn't work out that way. The effective 
rate at which actual tradings were occurring continued to be 
below and to fall further below the Fed's target.
    Subsequently, they changed how they described their target 
by saying, the target is now a bend, where the interest on 
reserves is the upper part of the bend, and the lower part is 
either zero or subsequently the overnight repo rate.
    Frankly, it is like an archer who misses a target then 
moves the target, and then says, see, now we are meeting the 
target again.
    Mr. Mulvaney. I follow that. But, again, why? Why would 
they use that tool and not another one? Why were the other 
tools ineffective?
    Mr. Selgin. The alternative would have been to raise 
interest rates by selling assets. And because the Fed had 
acquired such a large proportion of mortgage-backed securities, 
which it did not dare sell, and could not sell for much, and 
because of long-term Treasuries it held, it feared the balance 
sheet repercussions to itself, the capital losses, and also the 
consequences for the values of these securities in the market.
    Mr. Mulvaney. Does the Fed have to mark the assets on its 
balance sheet to market occasionally or not?
    Mr. Selgin. No, it does not. And it is an interesting 
question because the Fed, unlike normal banks, can actually 
become insolvent and have negative capital without closing 
shop. The problem is in the income statement where, of course, 
it would have to go hat-in-hand to Congress if it were not able 
to earn enough income to cover its operating expenses.
    Mr. Mulvaney. I hope we get a second round. I thank the 
chairman. Thank you, gentlemen.
    Chairman Huizenga. Thank you. The gentleman's time has 
expired. With that, the Chair recognizes Mr. Foster of Illinois 
for 5 minutes.
    Mr. Foster. Thank you. Let us say, Dr. Eisenbeis, if the 
Fed just let all of the assets run down, that it would be 
around 2029, I think you said that. And is that sort of similar 
what is happening over the last couple of years where, I 
believe, they are trending down?
    Mr. Eisenbeis. No, they haven't been trying to reduce the 
balance sheet at all. They have been reinvesting and maturing 
the portfolio--
    Mr. Foster. Then we--
    Mr. Eisenbeis. So, they have not yet made the decision to 
stop reinvesting and let the balance sheet run off. So, my--
    Mr. Foster. Okay.
    Mr. Eisenbeis. --number assumed that they would do that 
now. The longer they postpone then that 2029 figure gets pushed 
out further.
    Mr. Foster. Okay. And is there an understanding, an 
agreement on what would happen if they let it run down on the 
trajectory you talked about, unload things faster or slower? 
What effects that would have on short-term, that effect, by 
itself, on short-term and long-term interest rate?
    Mr. Eisenbeis. In the short run, what it would do is if the 
Treasury in particular maintained the volume of outstanding 
securities, this would put more collateral into the 
marketplace, and relieve some of the pressure on collateral and 
have an implication for interest rates.
    So, right now, the argument is that size of the balance 
sheet because of the interest rate impacts we have been talking 
about is actually a tightening. This would actually free up and 
be a little bit more of a moderating force on interest rates as 
a whole.
    Mr. Foster. Is there a limit on how rapidly you think they 
should unwind the balance sheet?
    Mr. Eisenbeis. The problem is that they risk if they have 
to unwind it faster and if that is necessitated because of 
restrictions on interest payment on reserves or inability to 
sort of sterilize the excess reserves, if the money supply 
started to grow too rapidly, then they would have to sell 
assets.
    And if interest rates are rising during this environment, 
which presumably would be the case, they would have to sell 
those assets at a capital loss. And rather than recognizing the 
capital loss on their balance sheet, they would be able to 
create what is called a deferred asset account or a negative 
asset account.
    And try to get your head around what a negative asset 
account is.
    Mr. Foster. I will. That is the end run guys.
    Mr. Eisenbeis. But if you match that negative asset account 
against their capital account they could quickly go insolvent 
as Dr. Selgin has indicated. And how would the world respond to 
seeing a negative--
    Mr. Foster. Okay. So it sounds like the default scenario 
here would be just to let everything run down by about 2029, 
and then use other tools to regulate interest rates as it, sort 
of, gradually. Is there anyone who believe that scenario would 
not work and could not be made to work?
    Mr. Eisenbeis. My problem with that is 2029 is a ways away, 
and that the whole period is it almost becomes permanent, that 
particular method of controlling the interest rate. I think 
that it would be far better to bring the balance sheet down, 
bring reserves down more rapidly if it is done strategically, 
clearly, I don't think it should be a problem.
    There is huge controversy about how much Q.E. actually did 
anything to interest rates. I think it sometimes surprised the 
market and moved rates, but if it was clear I think they could 
reduce that balance sheet much more rapidly than 2029.
    Mr. Foster. Okay. Dr. Selgin, you indicated at one point 
that the Federal Reserve couldn't sell the MBS's that it owned. 
Weren't these government-backed MBS's? Was there ever a point 
when they could not sell them?
    Mr. Selgin. The problem isn't that they can't sell them; 
the problem is they can't sell them for anything like what they 
are valued at on their books. So it is the problem that we have 
been talking about, about the Fed bearing losses on those 
securities by selling them.
    Mr. Foster. Did this have anything to do with the fact that 
they were mortgage-backed securities, or just the fact that--
    Mr. Selgin. They were mortgage-backed securities 
purchased--
    Mr. Foster. But it had nothing to do with the mortgage 
market directly--
    Mr. Selgin. No, they were mortgage-backed securities 
purchased during the crises precisely because their values at 
the time were doubtful and they were purchased as part of an 
emergency effort to help the financial institutions that had 
been holding those assets.
    Mr. Foster. Okay. Yes. I may have some follow-up questions. 
I don't completely understand that risk because I thought at 
the time that these were government-backed MBS's, and, in fact, 
it was not noticeably different than buying other government-
backed assets.
    Anyway, okay. Let us see. Just a final observation on the 
very first plot that showed the deviation from the Taylor Rule. 
I think if you look at point of maximum deviation, and then 
think about when elections were being held, I think you come up 
with an interesting argument for an independent Federal 
Reserve. And with that, I will yield back.
    Chairman Huizenga. The gentleman yields back. Point well 
taken. With that, we will be going to Mr. Pittenger of North 
Carolina for 5 minutes.
    Mr. Pittenger. Thank you, Mr. Chairman. And I thank each of 
you for being with us today. Mr. Eisenbeis, if the Fed's 
balance sheet strategy was working, then why haven't normal 
market conditions returned even after 8 years of financial 
panic?
    Mr. Eisenbeis. Could you repeat the question, sir?
    Mr. Pittenger. If the Fed's balance sheet strategy was 
working, then why haven't normal market conditions returned, 
even after 8 years?
    Mr. Eisenbeis. That really depends upon how they employ the 
tools that they use and what the growth rate in the economy is, 
and how sick of it, if we are on the present path there is a 
chance that they could get into a normalization situation, but 
I think the risk is that if the economy starts to pick up 
growth because it is one thing if they are growing at 2 
percent.
    But if the economy starts to grow, that means that 
inflation is going to potentially start to pick up. And then, 
they are in a bind as to what to do.
    Mr. Pittenger. As such, what is stopping the Fed at this 
point from naturally winding down the balance sheet?
    Mr. Eisenbeis. I think they are really in a risk adverse 
situation and risk management at this point in time. They are 
just really cautious about the fact that they have not been 
achieving their inflation objective.
    The labor market clearly is improving and doing quite well 
by comparison, but they are essentially wanting to keep their 
foot on the throttle from their perspective to get inflation up 
to their 2 percent target.
    Mr. Pittenger. Thank you. Dr. Selgin, in terms of economic 
opportunity how much damage is being done from leaving the 
balance sheet too big for too long?
    Mr. Selgin. I wish I could give you an answer to that 
question. What we can say is that the holding of, or the 
allocation of so much savings to the sectors that the Fed's 
balance sheet is supporting certainly does not contribute to 
productive investment as it might if the same savings were 
allocated by the commercial banks and other private lenders.
    We know that none of it is supporting lending, commercial 
lending of any kind. It is certainly not supporting lending to 
small businesses that is regarded as very important to a 
recovery. I believe it is an important factor, by no means the 
only important factor in the sluggish economy.
    And I believe it is one of the reasons why we have, despite 
the Fed's seemingly aggressive monetary expansion, we haven't 
really seen a very robust recovery coming out of that. The best 
that people can say is that it is not as bad as Europe. This 
doesn't seem to me to be a very clear endorsement of what the 
Fed has been up to.
    Mr. Pittenger. Thank you. And in terms of monetary policy 
independence, what damage is leaving the balance sheet too big 
for too long?
    Mr. Selgin. Sorry, could you repeat that?
    Mr. Pittenger. In terms of monetary policy independence, 
what damage is it to leave the balance sheet too big for too 
long?
    Mr. Selgin. That depends on how Congress responds to having 
such a big balance sheet and having the Fed maintain it, of 
course. I think that there is no reason why the Fed can't 
continue to be independent. But I think that Congress should 
limit its dependence to the extent of trying to tell it that it 
should not stay in this situation forever.
    If it is undermining Fed independence to merely tell them 
to go back to business as usual and to do it as quickly as 
possible, well, then I say the Fed has rather too much 
independence to begin with.
    Mr. Pittenger. Thank you. Dr. Taylor, to what extent does 
the remarkable expansion of the Fed's balance sheet mitigate 
the financial crises?
    Mr. Taylor. I think in the fall of 2008 when they provided 
lender-of-last-resort loans in the panic, in this panic period, 
it seems that was overall good monetary policy. And that is 
when the balance sheet first began to expand.
    However, those liquidity facilities drew up very quickly. I 
think after that, certainly after early 2009 I raised big 
questions as to whether that did any good at all. There are 
lots of studies. I did an early study back in 2009 which said 
it was not effective. Some argue it is actually 
counterproductive.
    Mr. Pittenger. To what extent then did it exacerbate the 
problem?
    Mr. Taylor. I think it is exacerbated the problem because 
it really delayed the time where the Fed could get back to the 
kind of policy that worked so well in the past. It has been a 
reason for them not to go back. And just this very discussion 
is they find it so difficult to reduce the balance sheet.
    It shows you one of the concerns many of us had about the 
increase in the balance sheet in the first place. It is almost 
like a we-told-you-so type of thing. Although, I am not doing 
that right here.
    Mr. Pittenger. Thank you. My time has expired. Unless the 
chairman wants you to comment?
    Chairman Huizenga. The gentleman's time has expired. With 
that, the Chair recognizes Mr. Himes of Connecticut for 5 
minutes.
    Mr. Himes. Thank you, Mr. Chairman. And I am not sure I 
have a lot in the way of questions. But I am here and I am 
concerned about this because big picture, what we are talking 
about is something that maybe some of my colleagues don't 
appreciate, which is the profound importance of the 
independence of monetary policy, and of a flexible central 
bank.
    Most Americans can understand why a strong military is 
important to national security, and why high taxes can affect 
economic vibrancy. Most of them don't necessarily get the 
historical fact that an independent and flexible and smart 
central bank is the very cornerstone of a functioning 
capitalist economy.
    And I can't help but feel that this hearing and the ongoing 
Fed bashing by my Republican friends and the scaling back of 
authorities and the audit the Fed are all part of an effort 
that if they are joined, the legacy of those who join in on 
that effort will be to erode one of the very cornerstones of 
this country's vibrant economy, which is an independent 
monetary policy.
    If we had had a Fed-caused disaster, I would understand why 
we would be having this conversation. But the reality is that 
in the last 8 years or so, the Fed was the one adult in the 
room. And I made this point in my opening statement.
    Congress failed in its responsibility to provide enough 
fiscal stimulus to do what it should have done. In the absence 
of good fiscal policy, and I am going to come back to this 
because the chairman took exception to what I characterized as 
an economic consensus, the Fed was the only game in town.
    And it is a fair thing to question what their authorities 
are, and to provide oversight, I have no doubt. But the reality 
is that their actions had results which show themselves in the 
fact, Mr. Selgin, that our economic recovery in combination 
with the decline of the deficit is the envy not just of Europe, 
but of every industrialized country.
    So we have been--if we had gotten it wrong and we are at 
the bottom in that stack, I get this. But, Mr. Chairman, and I 
don't mean to pick on the chairman on this, holds up as his 
counterpoint to my contention on the stimulus that a bunch of 
witnesses, four or five, selected, of course, by the chairman 
himself and the Majority party, raised their hands to say they 
didn't like the stimulus.
    Reality matters. I counter to the chairman the initiative 
of global markets, which is a survey conducted by the 
University of Chicago, hardly a hotbed of liberal thought, has 
surveyed economists across the political spectrum on the 
stimulus for a long time.
    Its most recent survey had 36 out of 37 economists saying 
that the stimulus actually improved the economy and reduced 
unemployment. Reality matters.
    And the reality is that we are criticizing the very people 
and eroding the monetary independence of the very people who 
were the one adult in the room with scare tactics. Ooh, some of 
this money is going to foreign banks.
    Well, guess what? Toronto Dominion, T.D., they extend 
mortgages in my district in southwest Connecticut. I know it is 
scary to say that we are sending money to foreign banks, but it 
is actually, as a politician, a little bit, for an economist, a 
little bit of a cheap political trick.
    The reality is that this policy has worked. Now, again, 
most of my constituents and most people here don't really 
understand what we are talking about. It is hard, this stuff. 
So, let me offer an analogy.
    We had a major car crash. We talk about the crash a lot. 
Let us envision this as a car crash. What happened in 2008 was 
a car crash where four people are bleeding in the street. And 
Congress said, instead of four ambulances we are sending you 
two.
    So, two people get taken off. This is the stimulus. And 
there are two people bleeding in the street. And the Federal 
Reserve says, geez, there are people bleeding in the street. We 
are going to send some helicopters, as they do from time to 
time. And, yes, that is extraordinary. We probably shouldn't do 
it for every car crash. But we didn't do what we needed to do.
    And so, now you have helicopters carrying people to the 
hospital. Nobody says that is the right way to do it, but it 
was the only way to do it. And the patients all lived. And now 
we are saying, my God, the helicopters were expensive, and 
there is glass in the street. And it scared the neighbors. We 
shouldn't use helicopters.
    Folks, it was the only game in town. Now--
    Chairman Huizenga. Will the gentleman yield?
    Mr. Himes. I will yield when I am finished.
    This was a tool that worked in literally a crash. And so, I 
appreciate the equanimity that Dr. Taylor is showing in 
particular. I don't think anybody wants this to be a standard 
tool, but, please, Mr. Chairman, and then I will yield, let us 
be very, very careful about scaling back authorities that had 
everything while we were negligent to do with the recovery, and 
that we may need, heaven forbid, but we may need in the future.
    And, yes, I will yield to the chairman.
    Chairman Huizenga. Thank you. I appreciate that. And I am 
assuming that if one is intellectually honest, one will also 
acknowledge that the drag on the recovery of the economy has 
oftentimes been linked to the Affordable Care Act (ACA). It has 
oftentimes been linked to the regulatory environment that has 
been created, the tax policy that even our own President has 
said needs to be reformulated.
    Mr. Himes. I will reclaim my time, and say, yes, those 
things have been linked to the recovery by my friends in the 
Republican Party. If you actually read, for example, the 
Federal Reserve, who we are talking about, they will tell you 
that this is a crisis of aggregate demand.
    They won't mention the Affordable Care Act. They won't 
mention taxation. They will mention it is an issue of aggregate 
demand. With that, I note that I am out of time.
    Chairman Huizenga. The gentleman's time has expired. With 
that, the Chair recognizes the gentlelady from Utah, Mrs. Love, 
for 5 minutes.
    Mrs. Love. Thank you, Mr. Chairman. Just a few questions 
and then I will yield back the remainder of my time if I have 
some time. Thank you for being here.
    As I have observed, the Fed has consistently and often 
badly overshot its mark in projecting economic growth, 
reflecting a misplaced belief that repeated rounds of 
quantitative easing, a $4.5 trillion balance sheet, and low 
record policy rates, could reliably get our economy back on 
track.
    Earlier this year, for instance, Forbes even mentioned that 
at the beginning of every year since 2008, economists have 
predicted its actions would produce a robust expansion. And 
each year has had to sharply downgrade those expectations.
    I guess the first question is, do you agree with that 
assessment? Are you seeing the same thing, Dr. Taylor, when it 
comes to the Fed's predictions?
    Mr. Taylor. Yes. They have over-forecast the growth rate 
consistently through this period, I think to some extent 
thinking that their policy would be more effective. They will 
punt for other reasons, but that is a big factor.
    Mrs. Love. Okay. So, I guess the question here, the basic 
question for me is why, despite such sophisticated models, does 
the Fed consistently miss the mark? And why not use those 
models to fuel a robust economy, or a robust recovery, as 
opposed to putting the brakes on economic opportunity? Dr. 
Selgin?
    Mr. Selgin. If they had good models, they could do what you 
say the problem is that their models are not very good. And 
when they employ wrong models, they take wrong policy actions, 
like the December rate hike, which was, at best, 
counterproductive.
    Mrs. Love. So, you are thinking that the models are just--
    Mr. Selgin. Yes. And--
    Mrs. Love. --not very good models.
    Mr. Selgin. --the fact is that the Fed--the Fed can do 
damage when it employs bad models, and it is experimentation 
often backfires.
    And this is why in Fed independence, to conduct monetary 
policy in the sense of being free to set the policy rates, 
which is the normal understanding of independence, to determine 
general monetary conditions, is not the same thing as Fed 
experimentation with activities and programs that it has never 
engaged in before. Independence isn't license.
    Mrs. Love. Okay. So, I guess this is my final question 
because I think the important thing in the work that we do 
here, is to try and figure out how this relates to the everyday 
person. What does this mean for the family who is sitting at 
the kitchen table if we continue to have these types of 
practices, and these models that are not working?
    What does that mean for the family? Did you have something 
you wanted to add, sir?
    Mr. Eisenbeis. I would like to respond briefly in the sense 
that you have to understand that the models that were being 
employed did not include experiments and experience like the 
Great Recession that we had.
    So, the data that are underlying the models, essentially 
mean that the current environment that we were in is out of 
sample forecasting, and the models didn't incorporate the kind 
of behavior and responses that the economy was in at this 
particular point in time.
    Mrs. Love. So, you are saying it was behind, we were behind 
the ball?
    Mr. Eisenbeis. There is no way you can generate data that 
would have essentially allowed the Fed on a current basis to 
revise the models in a way to capture the current economic 
environment.
    So, this is a characteristic of forecasting as a whole. We 
know that based on experiments that I did a long time ago that 
showed that the Fed's models essentially are as good as anybody 
else's, and better than most.
    But when you have an environment and an economic 
environment degenerating out of the normal behavior, you are 
going to have these kinds of errors. And there is really 
virtually no way to fix it.
    Mrs. Love. Okay. I have 25 seconds. Dr. Selgin, again, what 
does this mean? If we continue, what does this mean for the 
family who is sitting at home? How does that affect regular 
hardworking Americans?
    Mr. Selgin. The biggest effect comes through the lack of 
private investment, productive investment, small business 
investment, as a result of the fact that the Fed, through its 
encouragement of banks to hold reserves, and they cannot both 
hold reserves and loan.
    They are either holding one kind of asset on their balance 
sheet, or another, in real terms. This has a drag on the 
economy. And I would like to also add to that, with respect to 
what Congressman Himes said, the Fed did not add an ambulance 
to the batch when it paid interest on reserves. It took one 
away.
    Interest on reserves in 2008 was a contractionary measure 
which took away from aggregate demand, and its avowed purpose 
was to keep banks from lending the new reserves that were being 
created at the time.
    So, if you want aggregate demand to grow, and I think it 
desperately needed to grow at that time, if you want to have 
enough ambulances, you don't want the policy of interest on 
reserves implemented in the middle of a contraction.
    This is simply getting reality, which does, indeed, matter, 
wrong.
    Mrs. Love. Thank you. My time has expired.
    Chairman Huizenga. The gentlelady's time has expired.
    Mrs. Love. Thank you.
    Chairman Huizenga. With that, the Chair recognizes the 
gentleman from Washington, Mr. Heck, for 5 minutes.
    Mr. Heck. Thank you, Mr. Chairman.
    When it comes to this arcane subject of the Fed's authority 
to pay interest rates on reserves, I will admit in all candor 
that I am reminded of a couple of Mark Twain's phrases, one of 
which was, it's better to keep my mouth shut and allow people 
to think me ignorant then to open my mouth and remove all 
doubt. This just seems to me to be a question of how many 
angels can dance on the head of a pin.
    But I am heartened by the turn of this conversation which 
has become what is it that we can do to grow our economy at a 
faster rate than the relatively anemic growth that we have been 
experiencing. That fact not withstanding that I think we are 
now in our 74th straight month of private sector employment 
addition.
    Somebody used the other oft-used phrase earlier: This isn't 
rocket science. And when it comes to what it is that increases 
gross domestic product growth, I don't think it is rocket 
science either. If you want to increase aggregate demand, here 
is a real simple formula, this isn't hard: Increase employment 
and increase wages.
    Give America a raise, and give more people jobs. And that 
is what we learned in undergraduate school, logic class 
Tautology, A equals A. Why? Because our economy is nearly 70 
percent demand driven by consumers.
    So, if you want to increase the rate of growth in this 
economy, give more people jobs and increase wages. Voila.
    Now, there has been some reference here, which seems off 
topic to me, with all due respect, to regulatory environment 
and the like. Nobody has talked about the fact that the minimum 
wage has been stuck at $7.25 for I don't know how many years.
    I would ask every single person sitting in this room, or 
watching or listening, do you want to live on $7.25 an hour? 
Try that out. See what it is like to try to pay your rent and 
buy your food and provide for your children at $7.25 an hour.
    You want to move this economy faster? How about we stop 
underinvesting in our Nation's public infrastructure?
    In my district, fully 25 percent of the bridges are, from 
an engineering standpoint, deficient. Do you want to increase 
the economic growth in South Puget Sound and Washington State? 
Then complete State Road 167 into the Port of Tacoma, which 
will connect the largest warehouse district, the second largest 
warehouse district on the West Coast; to the largest container 
port in the Pacific Northwest.
    Fortunately, the State Legislature passed a transportation 
improvement bill to do just that. Bipartisan, but that will 
increase growth.
    You want to increase growth in South Puget Sound? Increase 
aggregate demand, increase the growth rate of the GDP? Then 
relieve the congestion on Interstate 5, around joint base Lewis 
McCord, also included in this last Transportation Improvement 
PAC.
    Yesterday morning, I drove from Olympia, Washington to 
SeaTac--52 miles. It took me nearly 2 hours. No accidents. On 
an interstate freeway.
    Ask yourself how much time people are sitting in traffic, 
moving at a glacial pace, not being home with their families 
for dinner, or not getting their goods to market, because we 
are under-investing in public infrastructure.
    Now, if there is one thing this entire Congress--Democrats 
and Republicans, and Liberals and Conservatives--ought to agree 
on it is that 2 percent isn't cutting it. It is an aggregate-
demand economy.
    Let us sit around here, and talk about how many angels 
could dance on the head of a pin, interest rates and excess 
reserves. But if we want to really move this economy forward, 
if we want to increase the GDP, then we need to increase wages 
and give more people jobs.
    I wish to associate myself with the remarks of the 
gentleman from Connecticut. With that, I yield back the balance 
of my time.
    Chairman Huizenga. The gentleman yields back. With that, 
the Chair recognizes the gentleman from Minnesota, Mr. Emmer, 
for 5 minutes.
    Mr. Emmer. Thank you, Mr. Chairman. And thanks to the panel 
for being here today.
    My understanding is we are talking about the tool, as it 
has been referred to, that the Federal Reserve was given as 
part of some legislation passed in 2008, to pay interest on 
reserves.
    And that, supposedly, was recommended many years earlier by 
Milton Friedman. But correct me if I am wrong, I don't think 
Milton Friedman suggested pay, not only on required reserves, 
because there is an implied tax, but I don't think Milton 
Friedman suggested paying interest on excess reserves. Am I 
incorrect about that?
    Mr. Selgin. I can't speak to what Mr. Friedman actually 
said on the specifics, but I am sure that he would have argued 
that it is the required reserves that really impose a cost on 
banks.
    But that is mostly because banks normally hold, in this 
country, very few excessive reserves. And the only way you can 
get them to hold more than a few, is by paying them interest on 
reserves.
    Mr. Emmer. And let us--
    Mr. Selgin. On excessive reserves.
    Mr. Emmer. Thank you, Dr. Selgin. Because let us say, if 
you go based on the facts, in 2007 the required reserves 
averaged $43 billion. Excessive reserves, at that time, 
averaged only $1.9 billion. And with the exception of 2 months 
in our country's history, that had been the case for 50-some 
years.
    In fact the case, as I understand it, is the excessive 
reserves typically accounted for about 10 percent of the total 
required reserves, up until this law was passed. And now, we 
have this huge balance sheet with $4.5 trillion in--the panel 
has told us that you have some ideas of how we are going to 
correct this.
    Before I leave it, though, Dr. Selgin, I think the 
important part is that the important point you made is not a 
partisan point.
    It is when you have all of this money sitting on reserve, 
apparently paying more money that maybe it could get out in the 
marketplace. You have the government distorting the 
marketplace, and that money isn't being put to work for better 
jobs, and higher wages, and new opportunities.
    Is that the point you were trying to make?
    Mr. Selgin. It is. And, again, what is relevant is not the 
absolute amount of reserves, which would go up necessarily. It 
is the amount of excess reserves, and how that has increased. 
And how it has increased in proportion to the overall size of 
banks' balance sheets. We would take the bank's balance sheet 
overall size as given.
    The question is, what are they doing with the resources 
available to them? If they are devoting them to holding 
reserves, then the investment is channeled to the Fed, and 
channeled to the sectors the Fed supports.
    If they don't do that, then they are channeling the 
investment themselves, directly, to other uses; which generally 
speaking, will be more productive. This is a mathematical 
certainty.
    Mr. Emmer. Dr. Taylor, quickly. And I am sorry about the 
short time, cause I would like to hear this from everybody, but 
of the different ideas that we have heard of how you reduce 
this excessive balance sheet, you start to rebalance it, if you 
would.
    By divesting assets, allowing assets to mature and run off 
these different ideas, which one would be the best? And do we 
risk, if it is done improperly, inflation or deflation 
circumstances?
    Mr. Taylor. I think it requires all these things. In 
addition, I would say some selling, some of the securities. In 
a way that is made clear to the markets. So the Fed seems to be 
worried about doing that, but I think you want to go further 
than, just, let it run out to 2029. So, I think that is the 
most important thing.
    And also, I think, having a goal, that is where they want 
to go. There is this statement about normalization that they 
have, but it is not clear about where they are going 
eventually. I think that is very important so then, people can 
plan.
    If I just add an example of an analogy. Back when there was 
the controversy about the Taper Tantrum, that is because the 
then-Chair of the Fed wasn't very clear about what they were 
doing with the balance sheet.
    As soon as they clarified, and this is with the new Chair 
more, it was an easy thing to start, just to have the Taper. It 
didn't cause disruption.
    I think it is very much the same now, as if they were clear 
about how they would reduce the balance sheet. I long ago 
argued that by the time the Federal Funds rate is at 2 percent, 
the balance sheet should be at the level where that rate is 
determined by the supply and demands reserves.
    I think that is kind of a goal that they could set. It is 
consistent with the tightening that they are planning on. It 
would be well-understood. I think it would work fine.
    Mr. Emmer. Thank you. I see my time has expired.
    Chairman Huizenga. The gentleman's time has expired. With 
that, the Chair recognizes the ranking member of the full 
Financial Services Committe, Ms. Waters, for 5 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman. I am very 
pleased about this hearing today. This is just the beginning of 
a long-term debate that we are going to have on the Fed.
    Let me just say that, when we had Federal Reserve Chair 
Janet Yellen here, she made it clear that allowing the Federal 
Reserve to pay interest on reserves as long as there is an 
abundance of reserves in the banking system, is absolutely 
critical to its ability to gradually and predictively move 
rates up as warranted, in the current environment.
    Now, I think it is important for me to say, at this point, 
that I have spent considerable time with Chair Janet Yellen, 
wanting to make sure that I understood not only quantitative 
easing and what it had done, and what it had not done, but I 
was very interested in this payment of interest on reserves and 
excess reserves, as it has been alluded to here.
    I have the greatest confidence in her. And I absolutely 
believe that she is making and has made some tremendously 
important decisions that have been extremely helpful.
    I think there is just a basic philosophical difference 
between this side of the aisle and that side of the aisle on 
whether or not the Fed should be independent, and I absolutely 
believe in the independence of the Fed and I absolutely believe 
that what has taken place here, particularly with quantitative 
easing and that program, that reduce long term Treasury yields 
by more than a full percentage point.
    It is important for us to know and understand lower, longer 
term rates also support a strong economic growth, help the 
stock market recover, allow underwater home owners to regain 
equity in their homes, and have positive effects on consumer 
spending through the wealth effect.
    Lower long-term rates also make business investment more 
affordable and make the trade balance more favorable by 
lowering the value of the dollar.
    So, I am going to turn to you, Dr. Keister. In your 
assessment, would all of these benefits associated with the 
Fed's quantitative easing program have been achievable if the 
Fed knew it wouldn't have the ability to manage short-term 
rates through interest on excess reserves as part of the 
normalization process?
    Mr. Keister. No, absolutely not. The ability to pay 
interest on reserves, including on excess reserves, I think, 
was critical in encouraging, in allowing the Fed to know that 
when the time came to raise interest rates, it could raise 
interest rates, regardless of the size of its balance sheet.
    And for that reason, it was able to undertake these large-
scale asset purchases which, as you mentioned, help lower long-
term interest rates and increase the flow of credit to 
consumers and households.
    If I may, I would like to make one other point that I think 
has gotten a bit lost in this discussion. So, Dr. Taylor had 
emphasized that allowing the Fed to pay interest on excess 
reserves going forward gives the Fed an additional policy tool, 
which is absolutely correct. And then he discussed some ways 
the Feds could potentially misuse that tool.
    But he also mentioned that the Fed's response to the early 
stages of the financial crisis in the fall of 2008 was proper. 
In response to a financial panic the Central Bank should do 
what it, what the Fed was chartered to do in the original 
Federal Reserve Act, that is provide an elastic currency, 
increase the supply of bank reserves with a supply of liquid 
assets when there is plight in the safety of the banking 
system.
    If the Fed were to lose the ability to pay interest on 
reserves, we would be back in the situation we were in, in 
2007. The Fed would face a conflict between being able to 
provide liquidity to the market in periods of financial turmoil 
and maintaining the interest rate that is appropriate with the 
stance of monetary policy.
    The Congress accelerated the authorization of the Fed to 
pay interest on reserves precisely to allow it to arrest the 
crisis in the fall of 2008. But had the Fed had that authority 
earlier, it would have been able to provide a much stronger 
market-based programs of liquidity assistance which may--it is 
hard to know for sure--have been effective in helping to 
prevent the worst of the financial crisis and thereby, make 
some of the stronger programs that we saw later unnecessary.
    Ms. Waters. Thank you, very much. I noticed that the word 
``experimentation'' has been used several times here and I 
think I would object to calling the quantitative easing and the 
interest on excess reserves ``experimentation.''
    It is flexibility, as I see it, and understand it. And I 
know that Mr. Huizenga has proposed, or is proposing that, 
somehow, we should absolutely bow down to the Taylor Rule, and 
maybe if there is something extraordinary happening, like 2008, 
we could have flexibility.
    So, I know you don't have time to answer that, but I think 
that is something that should be considered in our discussion 
as we continue to talk about the independence of the Fed. I 
yield back.
    Chairman Huizenga. The gentlelady yields back. Time has 
expired. I will point out that is actually not what the format 
says, but that is for another conversation. So with that, the 
gentleman from Indiana, Mr. Stutzman, is recognized for 5 
minutes.
    Mr. Stutzman. Thank you. Thank you, Mr. Chairman, and it is 
good to see the panel. Dr. Taylor, it's good to see you, and I 
have enjoyed listening so far to the conversation.
    One of the things that people back home often expect from 
Washington is that it not stand in the way of progress, that it 
not stand in the way of growth. And if you look at history that 
we have here in this country, and the United States has been 
blessed with different periods of tremendous growth but you 
look at what we have also seen in the past 10 years.
    I am looking at an article right now that says that the 
United States has record 10th straight year without 3 percent 
GDP growth. And I think that this is only, this is only the way 
that things are going to feel better, be better in the, across 
the country.
    When you talk to families in Indiana, in the 3rd District, 
they are wondering why things aren't better. What is standing 
in front of growth?
    And I think there are a variety of things to address that. 
I think it is an interesting thing, too, that while it may not 
just be Fed policy that affects growth, I think also you see 
the regulatory environment that we are dealing with out of 
Washington has slowed growth tremendously. Industries just 
don't know what to do.
    But I think that when you look at the facts, and if you 
take a macro view of where this country has been over the last 
100 years with the institution of the Fed, there are two 
periods in history. And I think this is what we all want. We 
all want to figure out what gives us growth, because that is 
the way the country is only going to move forward. That is the 
way families are going to do better.
    And there were two periods in Federal Reserve history when 
we experienced a tremendous amount of growth and that happened 
to be in 1923 to 1928 and then in 1985 to 2003. In the first 
case, the Fed operated under some form of the Gold Standard, 
and in the second case, under the Taylor Rule, more or less.
    And those were two periods where we saw tremendous growth. 
And I think that is what is lost on Washington a lot of times, 
is the fact that families are struggling today, that America 
could be doing a lot better, that we are not reaching our full 
capacity.
    To go 10 years without 3 percent GDP growth is really 
remarkable. And I think we all should be asking the question, 
why? Why is that the case? And I know, we all want what is best 
for families. We want what is best for this country, for us to 
deal with the debt, for us to deal with increased wages.
    Something is going to have to give, and I think that this 
hearing is particularly interesting because it deals with the 
Fed, which I do believe affects our economy.
    Dr. Taylor, I would like to start with you about the 
balance sheet of the Fed. Why not just naturally wind it down? 
What is keeping the Fed from winding down its balance sheet and 
I think that the more strength we see, the more opportunity and 
ability in the private market is going to give.
    I can feel it when I go home. There are people who want to 
grow, but can you talk a little bit about the Fed and just why 
don't they naturally wind down their balance sheet?
    Mr. Taylor. I think they could. I think they are reluctant 
to, for the same reasons; they think the expansion was 
beneficial and we heard a couple of statements about that 
already. I don't think it was so beneficial.
    To me, they can undo this, as long as it is gradual, 
certainly they can take some time to do it and be clear about 
it. I think that is the way to go.
    I think that there are, as you say, many other things in 
policy and I do think this regulatory reform, I do think the 
fiscal reform, the tax reform, and all those things are very 
important. They go together, to me.
    You mentioned these periods of time. Well, those are 
periods where you also saw good and bad other kinds of policies 
too, so it all goes together in my view.
    Mr. Stutzman. I don't know if anybody else would like to 
comment. Go ahead.
    Mr. Eisenbeis. Yes. There are really two underpinnings for 
growth. One is for real economic growth, and one is for 
population growth, which contributes to economic growth and the 
second is productivity.
    Productivity has really slacked off and productivity growth 
has slacked off and to me, that is an area where policy focus 
should be as to what is holding back productivity growth at 
this point.
    Because, on the one hand, we have technology and a lot of 
things in place that look very promising, but why isn't 
productivity growth expanding? The Fed can create a climate for 
growth but it can't deal with productivity growth and some of 
the key underlying determinates of real GDP growth.
    Mr. Stutzman. Absolutely. And I agree with that, but again, 
a sound fiscal monetary policy is part--it has to be one of the 
top priorities for us, especially in this committee, but 
knowing energy.
    Energy doesn't know what to do right now because of the 
policies out of Washington. Manufacturing--every time 
businesses turn around, they just feel another sort of 
regulation piling on them and that is what is slowing us down. 
But for these purposes, the best thing we can do is to make 
sure the monetary policy is fiscally sound. Dr. Elgin?
    Mr. Selgin. Yes.
    Mr. Stutzman. If it is okay with the chairman.
    Mr. Selgin. Let us remember that this is, you can achieve 
any level of monetary policy, any degree of contractionary or 
expansionary policy with any number of combinations of balance 
sheet adjustment and interest on reserve.
    Unwinding the Fed's balance sheet is contractionary, other 
things equal. But interest on reserves or raising the rate of 
interest rate, of interest on excess reserves, is also 
contractionary. If, right now, we have a combination where 
banks are encouraged to hold high excess reserves and the 
balance sheet is very large.
    Now, even if you think that the overall stance of policy is 
sound, that combination implements the stance of policy in a 
way that involves less productive investment. The alternative 
is for the Fed to have a smaller balance sheet and for interest 
on reserves to be lower so that the demand for excess reserves 
is lower.
    You can have the same monetary policy stance but end up 
with much more productive activity as a result of more savings 
being allocated through the private sector banks and fewer 
through the Fed.
    Mr. Stutzman. Absolutely. I agree with that and I just 
think that we have to focus on velocity in the economy and this 
is one thing that is slowing down our monetary policies. With 
that, Mr. Chairman, I will yield back.
    Mr. Mulvaney [presiding]. I thank the gentleman. I will now 
recognize the gentleman from Michigan, Mr. Kildee, for 5 
minutes.
    Mr. Kildee. Thank you, Mr. Chairman, and I thank all the 
witnesses for your participation.
    My question is specifically for Dr. Keister. First of all, 
welcome, and congratulations on a wonderful commencement 
exercise that you had at Rutgers. It got a lot of attention and 
we welcome, we certainly welcome Rutgers to the Big 10. As a 
Michigan fan, I have to tell you, any chance we can have 
somebody come in to sort of slip below our ranking, we are 
happy to have you.
    Mr. Keister. You are welcome.
    Mr. Kildee. Thank you, and I apologize if my question is 
redundant or has already been addressed. I was just able to get 
here to the hearing.
    But if I understand the hearing, it concerns the tools 
currently available to the Fed in order to influence short-term 
rates in particular, paying interest on excess reserves and 
overnight reverse repurchase operations so, Doctor, in your 
testimony before our committee in February, in her testimony, 
Chair Yellen indicated that higher rates of interest paid on 
excess reserves would, in her words, eventually pass through to 
customers in the form of higher deposit rates.
    My first question is, what evidence do we see that savers 
are actually benefitting from the increase in interest the Fed 
is paying on bank reserves in the form of higher deposit rates?
    And I ask this because I think it is important that we take 
a broader view regarding the resources that can be used to 
invest, particularly in distressed communities and cities, 
which have been the focus of a lot of my work.
    I have pushed that the Fed use all of its tools to meet the 
obligations regarding stable prices but most importantly, I 
think, particularly in the areas I represent, to maximize 
employment. So, how do you see the Fed's influence over short-
term interest rates impacting its broader goals? If you could 
address those two questions, I would appreciate it.
    Mr. Keister. Sure. So first, regarding the evidence that 
consumers are benefitting from higher rates, the whole goal 
when the Fed raises interest rates, it raises the interest rate 
currently that it is paying on excess reserves and it drags up 
all market interest rates with it. I don't have specific data 
handy, but I do have anecdotal evidence.
    I pay attention to the interest rate I receive from my 
bank, and when the Feds raised the interest rate on excess 
reserves from 25 basis points to 50 basis points, the interest 
rate I received went up.
    As I mentioned I looked it up for preparing my testimony. 
It is currently 30 basis points. Okay. So, and as the Fed 
continues to raise, as the economy continues to recover, the 
Fed finds it appropriate to continue to raise the interest rate 
it pays on excess reserves.
    Banks will compete for deposits and as they do so, that 
will bid up the interest rate the depositors are receiving. So 
raising interest rate on excess reserve is designed to benefit 
savers and that will happen. Could you repeat your second 
question?
    Mr. Kildee. The second question is, what are the 
implications for the Fed's broader goals, particularly 
regarding increased employment? In other words, what are the 
externalities that you see in a broader economy resulting from 
this practice?
    Mr. Keister. Sure. So, the Fed is always, in normal times 
and now, trying to balance the competing goals of promoting 
full employment while keeping prices stable. Okay? And the 
decisions the committee makes on the interest rates are 
designed with those two goals in mind.
    So, as has been discussed here so far, one possibility of 
removing accommodation and that is, restraining the economy as 
it continues to improve, would be for the Fed to shrink its 
balance sheet.
    I think the Fed has chosen, and Chair Yellen has testified, 
that doing so by shrinking the balance sheet is a less 
conventional way of communicating the stance of monetary policy 
to markets.
    The more conventional way is to do it by raising interest 
rates, and so the committee has chosen, at least for the time 
being, to normalize monetary policy by first raising interest 
rates and then later, shrinking its interest rate back to, 
sorry, shrinking its balance sheet back to a more moderate 
size.
    And in doing so, I think it is making a judgment that is 
reasonable in my view, that before taking the untested path of 
shrinking its balance sheet, we would like to make sure the 
economy is on a more sound footing and to decrease the risk 
associated with any uncertainty or any market disruptions that 
could be potentially associated with that.
    Mr. Kildee. Thank you. My time is just about up. I yield 
back the balance of my time.
    Mr. Mulvaney. Thank you. The Chair will now recognize Mr. 
Schweikert from Arizona for 5 minutes.
    Mr. Schweikert. Thank you, Mr. Chairman. You look good in 
that chair. Okay. I have a dozen different questions and let us 
try to ramp through them and see if we can make them make 
sense.
    Mr. Keister, I remember a conversation about 2 years ago 
that the RRP's sort of mechanics that we were looking at, 
particularly in light of deposit insurance, sort of arbitrage 
that a bit, that actually you would, in some ways inflate up, 
long term mortgage rates, because you would be, in a sense. Was 
that what you were telling me about your own personal 
experience on a home loan?
    Mr. Keister. That is right. So if I understand correctly, 
you are asking so, as the Feds raised the interest rate on 
excess reserves, it also raised the interest on this new 
overnight RRP--
    Mr. Schweikert. Well, yes. It is obviously more than that. 
You have the IOER's, a pool, take away my deposit insurance, 
pull that out of the market, would you then start to raise up 
my cost of mortgage?
    Mr. Keister. That is right. So any time the Fed raises 
short-term interest rates, the goal is to be removing monetary 
accommodation and that should raise longer-term rates.
    Mr. Schweikert. Okay. Dr. Selgin, there are a couple of 
things I am trying to get my head around. First off, is this 
sort of system we have right now with the Feds dramatically 
sort of growing the way they are compensating excess reserves 
and sort of that reverse repo mechanic?
    Has it started to squeeze out private providers of repo? 
Because now I am competing with the Federal Reserve and I no 
longer have deposit insurance. Are we seeing that?
    Mr. Selgin. Yes. It is because of the way the Fed repo 
operations work. They actually don't, they take collateral from 
the marketplace that is not available even though technically 
you have short-term purchases.
    That is, the Fed is borrowing, but it is borrowing in a way 
that doesn't take the collateral off its balance sheet and make 
it available to the private sector.
    So, the result is that there is a shortage of collateral 
for other kinds of credit creation, including private repo 
operations. And this is a big problem.
    Mr. Schweikert. Dr. Eisenbeis, please.
    Mr. Eisenbeis. Actually, what the Fed is doing is repoing 
its own securities out into the marketplace. So, the securities 
actually become a liquid asset that can be repoed out, or used 
as collateral for other activities. So what is supplying 
liquidity in the market, in terms of--
    Mr. Selgin. Not true.
    Mr. Eisenbeis. --the securities.
    Mr. Selgin. No.
    Mr. Schweikert. But--
    Mr. Selgin. No.
    Mr. Schweikert. --even in that case, all you are doing is 
functionally saying, hey, I already hold the asset. That is my 
pledge on the repo. You are--
    Mr. Eisenbeis. What it is doing--
    Mr. Schweikert. --basically just pulling that cash out.
    Mr. Eisenbeis. What it is doing is sterilizing part of the 
excess reserves.
    Mr. Schweikert. Yes, but that doesn't leave you any 
multiplier effect in--
    Mr. Eisenbeis. No, it doesn't.
    Mr. Schweikert. --in the least light.
    Mr. Eisenbeis. No.
    Mr. Schweikert. And that was part of the, where I was going 
to go with. It is this, okay, fine. I get to use my existing 
book, I get to pledge it up, I get my repo.
    But if you are having an argument saying, okay, where is my 
liquidity, my expansive monetary policy, you are actually, in 
some ways, doing just the opposite.
    Mr. Eisenbeis. No, it is designed to raise interest rates. 
It is the tools that sort of tighten policy, in that sense.
    Mr. Selgin. They are, if I may say--
    Mr. Schweikert. No.
    Mr. Selgin. Sorry.
    Mr. Schweikert. Sorry.
    Mr. Selgin. The--
    Mr. Schweikert. And tell me if I was wrong in my--
    Mr. Selgin. No, you are not.
    Mr. Schweikert. --feeble attempt to explain.
    Mr. Selgin. You have to understand, there are two ways 
interest ways can be raised. Doctor Keister referred to 
tightening money, as a way of raising interest rates; which it 
certainly will do in the short run.
    But the overwhelming reason for low interest rates right 
now is the low level of GDP in overall nominal spending. And 
that has a contractionary effect and interest on reserves 
contributes to that.
    But if we avoid spending by creating more liquidity, 
instead of increasing the demand for liquidity, that too will 
eventually put upward pressure on interest rates, but in a way 
that doesn't involve overall tightening of--
    Mr. Schweikert. Okay.
    Mr. Selgin. --credit.
    Mr. Schweikert. This is one of those moments I definitely 
wish I had more time.
    Dr. Taylor, I need help on two things, and you have like 10 
seconds to do it. If I come to you and say, the size of the 
book as it is today on the Federal Reserve, what does that do 
to lending velocity in the overall economy, when my safe yield 
rate is, I basically, I have a free, or safe rate with a yield.
    So, my cash ends up going into the Federal Reserve, instead 
of multiplying in the economy. And next--no, let us do that 
because we are out of time. So--
    Mr. Taylor. I think in that case, these excess reserves 
are, if anything, signaling that they are going to be there for 
a while. So there is this notion they are going to there for a 
while, and therefore, we are not going to be back to normal for 
a while.
    And I think that is a problem with its effects on the 
economy. That is the main thing I would say about that.
    Mr. Schweikert. I couldn't find it, but somewhere I have an 
article about the allocation of capital argument. That one of 
the problems for our lack of growth is--
    Mr. Taylor. Yes.
    Mr. Schweikert. --we are not getting the allocation in--
    Mr. Taylor. I think in the--
    Mr. Schweikert. --places in the economy--
    Mr. Taylor. --Federal. Certainly in the money markets.
    Mr. Schweikert. --where, yes you might have a little risk; 
but you get a--
    Mr. Taylor. Yes.
    Mr. Schweikert. --multiplier.
    Mr. Taylor. That is it.
    Mr. Schweikert. Is this the--
    Mr. Taylor. That is a--
    Mr. Schweikert. --cost.
    Mr. Taylor. Certainly in the money markets they haven't 
been functioning very well at all. Maybe they will as the rates 
come up a little bit, but that is an allocation of those funds 
to different banks and different parts of the economy, which is 
not very effective, with the near zero interest rate.
    Mr. Schweikert. All right. Mr. Chairman, thank you for your 
patience. I yield back.
    Mr. Mulvaney. I now recognize the gentleman from New 
Mexico, Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    If the gentleman from Arizona needs a little bit more time, 
I would be happy--I was going to follow right along in that 
line of questions if you--
    Mr. Schweikert. Maybe, keep going--
    Mr. Pearce. Okay. So, this idea that we are encouraging, 
Dr. Keister, this is kind of at odds with your testimony. But 
it is something that I believe in real life that we are giving 
incentive for banks to hold reserves, rather than getting the 
money out to where it starts causing the economy to grow.
    You appear to approach it from a little different point of 
view. Can you explain why that perception that you have been 
hearing is now, and is definitely rooted in my mind, is maybe 
incorrect?
    Mr. Keister. Sure. So, it is important to keep in mind that 
when the Federal Reserve creates reserves, as Dr. Eisenbeis 
mentioned earlier, they don't disappear. So the quantity of 
reserves in the banking system is going to be there. No matter 
how much lending goes on, and other activity. Okay?
    So when the Federal--and also when, as I testified earlier, 
when the Federal Reserve creates reserves, that process also 
creates bank deposits. So banks are getting a new source of 
funding, at the same time that they are getting a new asset.
    So, that funding, that new asset is not crowding out other 
things they--other assets they could be holding. Loans to 
businesses, loans to consumers.
    Mr. Pearce. Yes, see I would perceive it exactly the 
opposite, that a bank is sitting here with its reserves, and 
they have to tell us what to do with them. If they don't have 
that return on that investment, then they are sort of forced to 
do what banks are supposed to do.
    But I think now then, a lot of banks are just sitting on 
reserves. I don't think they are out there, because I hear the 
small business people coming and saying, well, I have pretty 
good credit. I have never missed a payment, but I can't get a 
loan. I want to expand my business. And so, the banks are being 
given an incentive to stay out of the business of loaning 
money, and so, yes, I didn't quite--
    Yes, sir, Dr. Selgin.
    Mr. Keister. Well--
    Mr. Pearce. Selgin. The other seat, go ahead. You seem to 
want to make comments, so I am going to--
    Mr. Selgin. Yes I do. Thank you. It is true that when the 
Fed creates reserves, it creates an equal amount of deposits in 
the system.
    But it is also true that in the absence of interest on 
reserves, conventionally and before the crisis, the total 
deposit creation, because of the lending of the extra reserves, 
that is of the excess; would end up being something like 10 
times the initial creation associated with the Fed's own 
expansion.
    So, what happens in the interest on reserves, on excess 
reserves environment, what has happened, is that multiple of 10 
has gone away. And this is why, as a ratio of their total 
balance sheets, the banks, end up holding a much higher than 
they normally do.
    It is the ratio that is determining the relative extent of 
productive investment that goes on. And that ratio of 
productive investment to reserves is what is down. Banks have 
control over that.
    If they didn't have control over the ratio, why in other 
cases where central banks have created vast amounts of 
reserves, you would see reserves--excess reserves accumulating, 
instead of banks lending more. Every hyper-inflation we have 
ever seen would have been impossible, because the banks would 
have just sat on their reserves.
    Mr. Pearce. Okay. Wait.
    Mr. Selgin. So it is not true that banks have no choice.
    Mr. Pearce. So, if we are going to follow on, and we want 
to add another variable into it. So now then, you get 
regulators. You consider that, okay. Maybe the interest has an 
effect, maybe it doesn't.
    But when you get regulators coming in, and looking at the 
bank, and saying, about fairly safe loans, that we are going to 
classify this loan. So now then, you have just the suggestion, 
says, I am better off being on the sidelines because the 
regulatory impact of very good loans--again, these are loans 
that I have heard about in our district, where people say, why 
would I ever lend money? When the regulators are going to say 
this, and they will pay me not to lend money.
    And so, in a State like New Mexico, with a small economy, 
we have 70 days' worth of funds to lend for houses. So, it is 
not like the State is swimming in cash reserves.
    And yet, we are giving these depressing effects. So we have 
not seen that dramatic economic growth that is being proclaimed 
here in Washington that is occurring.
    Dr. Taylor, do you have an observation?
    Mr. Taylor. Yes. I think during this period where they had 
a 25 basis points interest on reserve, it is really in 
retrospect I think. Dr. Selgin is correct about this. In 
retrospect, I would say, why did they do that?
    I think Dr. Kiester is saying, well, they were doing that 
because they wanted to move to ready to move it from 50 basis, 
from 25; which is not clear why they had to do that.
    So, I think, a lot of these questions wouldn't be there, 
had they just not paid interest rates on reserves. They had the 
right to do that, obviously. It doesn't mean they have to pay 
interest. They could have paid zero, starting back in 2008 
until now, until December of 2015.
    I think, in retrospect, it certainly would have been a 
better thing to do. They have given lots of answers to that to 
people over the time, I am sure. I think the main one is to be 
ready. The mechanism is there. I think it is questionable.
    Mr. Pearce. Yes, and then just then a last point that, and 
thanks, Mr. Chairman for a little bit of the time here, but the 
banks, a little bit, get out of the perfection of making good 
loans versus bad loans.
    And so, they are uncertain because their activity has 
shrunk down, due to regulatory things, and cash reserves are 
being really encouraged. And so, I find that the banks even get 
a little out of practice, in determining what is a good loan 
and a bad loan.
    And then, they are even more hesitant, at a time when we 
need them to be more courageous. They are more hesitant, and 
the economy suffers.
    Thank you, Mr. Chairman for your indulgence.
    Mr. Mulvaney. I thank the gentleman. And while we are not 
going to do a second round, Ms. Moore was very gracious in 
allowing me to maybe ask just a few more questions to finish up 
on some of our dialogue earlier, Dr. Selgin.
    To refresh your recollection, we were talking about the Fed 
not marking to market the balance sheet implications of the 
value of their assets, and so forth. And then you made a 
comment as the time was expiring about the P & L, the profit 
and loss impacts of that.
    And whether or not if their earnings, the net earnings, 
turned negative, they might have to come hat in hand to 
Congress. I had actually asked Dr. Bernanke that question along 
those lines 2 years ago.
    Where in a rising interest rate environment, you can 
foresee a situation where the net earnings of the Fed go 
negative. That they will have to end up paying off much higher 
rates of interest, they won't be earning as much on their 
balance sheet, et cetera.
    And I asked him, what would happen? And he did not say that 
they would have to come hat-in-hand to Congress to ask for 
money. He said they would simply take it off the balance sheet, 
or adjust the balance sheet.
    I never really understood exactly what he was talking 
about. I got the impression what he meant was, they were going 
to conjure the money up, the same way they do to buy. Dr. 
Eisenbeis is saying no.
    Dr. Selgin is looking at me, like, he is not sure what I am 
talking about. I am just curious to know, what might happen in 
a situation where the profit and loss turns negative for the 
Federal Reserve? We will start--
    Mr. Eisenbeis. I have--
    Mr. Mulvaney. --with Dr. Eisenbeis.
    Mr. Eisenbeis. I have the answer to that.
    Mr. Mulvaney. And then go to Dr. Selgin.
    Mr. Eisenbeis. I have the answer to that, sir. According to 
the way the law is set up, when the Fed income is no longer 
sufficient to pay interest on reserves, they stop making 
remittances, and write the difference up in this negative asset 
account that I was talking about before.
    And what that is, is an acclaim on future revenues on 
Treasury securities, and assets on the balance sheet that as it 
is received, would be used to write down that account, and when 
it can borrow from the--
    Mr. Mulvaney. To borrow from their own future earnings--
    Mr. Eisenbeis. Yes.
    Mr. Mulvaney. --is what I have--and something that private 
business can't do, right?
    Mr. Eisenbeis. No. Actually, there is the loss 
carryforward, but it is not really, totally analogous to this.
    Mr. Mulvaney. I have never been able to monetize a loss 
carry forward. I have news for you, it is hard to do, but--
    Mr. Eisenbeis. The Fed can do it, however. But it is 
really, sort of, an accounting gimmick. To sort of preserve, 
and enable the Fed not to have to go to the Treasury.
    Mr. Mulvaney. It is not that common because it has never 
happened, right? The Fed is never--
    Mr. Eisenbeis. No.
    Mr. Mulvaney. Okay.
    Dr. Selgin, are you, in general, accord with that?
    Mr. Selgin. Yes, you can do that up to a point. Remember 
that the interest payments that have to be made to the bank 
exceed the terms, then it is losing money. In that case, there 
has to be some monetization involved in order for--it has got 
to be covered somehow.
    Mr. Mulvaney. It does have to be covered somehow. But my 
understanding is that they can--they can monetize these future 
earnings to this negative asset account. And, essentially, they 
have to have cash. Because the cash has to go out the door.
    Mr. Selgin. That is it, that's right, there is monetization 
involved, and that is essential, and--
    Mr. Mulvaney. --and it is self-monetization, essentially 
conjuring the money up, correct?
    Mr. Selgin. That is right.
    Mr. Mulvaney. Dr. Keister?
    Mr. Keister. I would just like to add one point. So, this 
possibility we are discussing is the flip side of the larger 
emittances the Fed has been making to the Treasury over the 
past few years.
    The entire problem could be avoided if the Congress 
authorized the Fed to hold--to create a reserve fund to hold 
back some of these larger emittances, until it is able to 
shrink back its balance sheet, and this possibility has 
disappeared.
    Mr. Mulvaney. That is a fascinating idea. It sounds like a 
great way to solve the GSE problem.
    Dr. Eisenbeis, did you have one last thought on that?
    Mr. Eisenbeis. Yes. In fact, the opposite has happened 
because the Fed surplus in the Highway Transportation bill, $20 
billion of it was taken off the Fed's balance sheet.
    So, now they have only $30 billion in equity, combination 
of paid-in surplus and everything. So--
    Mr. Mulvaney. I think that was noted, wasn't it, on one of 
Ms. Moore's earlier graphs as an additional remittance during 
last year.
    So, if there are no further follow-ups on that specific 
topic? Ms. Moore, do you have anything else?
    Ms. Moore. No, it was a good question.
    Mr. Mulvaney. I appreciate the ability to ask that 
question.
    Mr. Eisenbeis. Mr. Chairman, may I make just another 
clarification? And it has to--
    Mr. Mulvaney. I will stay as long as Ms. Moore wants to.
    Mr. Eisenbeis. It relates to why the Federal funds, 
effective Federal funds rate was below the target. And the 
reason was because Freddie Mac and Fannie Mae were not able to 
hold and earn interest on their deposits at the Fed.
    So, they were accumulating large amounts of excess funds, 
and lending them out into the Federal funds market, willing to 
take a rate below the target rate because they had no other 
alternative.
    And that is the reason the effective funds rate was below 
the target.
    Mr. Mulvaney. Fascinating. Ms. Moore, do you have anything 
else to add?
    Ms. Moore. I thank all of the witnesses for your 
indulgence, and we learned a lot.
    Mr. Mulvaney. The Chair notes that some Members may have 
additional questions for this panel, which they may wish to 
submit in writing. Without objection, the hearing record will 
remain open for 5 legislative days for Members to submit 
written questions to these witnesses and to place their 
responses in the record. Also, without objection, Members will 
have 5 legislative days to submit extraneous materials to the 
Chair for inclusion in the record.
     Thank you. The hearing is adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]

                            A P P E N D I X



                              May 17, 2016
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              



</pre></body></html>
